<html>
<title> - FEMA'S TOXIC TRAILERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         FEMA'S TOXIC TRAILERS 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

                           Serial No. 110-41

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                     U.S. GOVERNMENT PRINTING OFFICE

40-851 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













































             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director






































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2007....................................     1
Statement of:
    Needle, Scott, M.D., American Academy of Pediatrics; Mary 
      DeVany, industrial hygienist, DeVany Industrial 
      Consultants; Paul Stewart, travel trailer occupant, 
      December 2005 to March 2006; Lindsay Huckabee, mobile home 
      occupant, December 2005 to present; and James Harris, Jr., 
      travel trailer occupant, April 2006 to present.............   112
        DeVany, Mary.............................................   119
        Harris, James, Jr........................................   148
        Huckabee, Lindsay........................................   141
        Needle, Scott............................................   112
        Stewart, Paul............................................   130
    Paulison, R. David, Administrator, Federal Emergency 
      Management Agency..........................................   202
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................   109
    DeVany, Mary, industrial hygienist, DeVany Industrial 
      Consultants, prepared statement of.........................   121
    Harris, James, Jr., travel trailer occupant, April 2006 to 
      present, prepared statement of.............................   151
    Huckabee, Lindsay, mobile home occupant, December 2005 to 
      present, prepared statement of.............................   144
    Jindal, Hon. Bobby, a Representative in Congress from the 
      State of Louisiana, prepared statement of..................   245
    Needle, Scott, M.D., American Academy of Pediatrics, prepared 
      statement of...............................................   114
    Paulison, R. David, Administrator, Federal Emergency 
      Management Agency, prepared statement of...................   205
    Stewart, Paul, travel trailer occupant, December 2005 to 
      March 2006, prepared statement of..........................   134
    Yarmuth, Hon. John A., a Representative in Congress from the 
      State of Kentucky, prepared statement of Mr. Carter........   181
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Prepared statement of....................................     4
        Prepared statement of Carlton and Dawn Sistrunk..........   164
        Prepared statements of Mr. Nelson and Ms. Gillette.......   218
        Prepared statements of the Manufactured Housing Institute 
          and Lee Shull..........................................   157


                         FEMA'S TOXIC TRAILERS

                              ----------                              


                        THURSDAY, JULY 19, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Towns, Maloney, Cummings, 
Davis of Illinois, Clay, Watson, Yarmuth, Braley, Norton, 
Cooper, Hodes, Murphy, Sarbanes, Welch, Davis of Virginia, 
Souder, Platts, Issa, Westmoreland, Foxx, Sali, and Jordan.
    Also present: Representatives Melancon, Jindal, and Taylor.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Kristin Amerling, general 
counsel; Karen Lightfoot, communications director and senior 
policy advisor; Greg Dotson, chief environmental counsel; Erik 
Jones, counsel; Earley Green, chief clerk; Teresa Coufal, 
deputy clerk; Caren Auchman, press assistant; Zhongrui ``JR'' 
Deng, chief information officer; Leneal Scott, information 
systems manager; Kerry Gutknecht and Will Ragland, staff 
assistants; David Marin, minority staff director; Larry 
Halloran, minority deputy staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; Keith 
Ausbrook, minority general counsel; Ellen Brown, minority 
legislative director and senior policy counsel; Steve Castor, 
minority counsel; John Cuaderes, minority senior investigator 
and policy advisor; Patrick Lyden, minority parliamentarian and 
member services coordinator; Brian McNicoll, minority 
communications director; Benjamin Chance, minority clerk; and 
Ali Ahmad, minority staff assistant and online communications 
coordinator.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Today we begin 2 days of hearings on the Federal Emergency 
Management Agency. These hearings are part of a series of 
hearings in this committee on how to make Government effective 
again.
    In the 1990's, FEMA was a model Government agency, but, as 
Hurricane Katrina showed, cronyism, under-funding, and lack of 
leadership turned FEMA into the most ridiculed agency in the 
Government.
    In these hearings we will ask whether FEMA has learned the 
lessons of Hurricane Katrina and restored its capacity to 
protect the public in disasters. Today we are going to look at 
a narrow but telling subject: FEMA trailers that exposed our 
citizens to dangerous levels of formaldehyde. Then in 2 weeks 
we will look at the broader topic of FEMA's preparedness for 
the next disaster.
    I want to commend our colleague, Ranking Member Tom Davis, 
for asking for the preparedness hearing and for his bipartisan 
approach to these issues.
    Americans were repulsed by the indifference and 
incompetence of FEMA displayed after Hurricane Katrina. 
Incredibly, FEMA has adopted the same attitude in addressing 
reports of high levels of formaldehyde in FEMA trailers. The 
nearly 5,000 pages of documents we have reviewed expose an 
official policy of premeditated ignorance. Senior FEMA 
officials in Washington didn't want to know what they already 
knew, because they didn't want the moral and legal 
responsibility to do what they knew had to be done, so they did 
their best not to know. It is sickening, and the exact opposite 
of what Government should be.
    My staff has prepared a briefing memo for Members that 
describes in detail what we learned from our review of the FEMA 
documents, and I ask unanimous consent to include the memo and 
the documents it cites in the hearing record. Without 
objection, that will be the order.
    The FEMA documents depict a battle between FEMA field 
staff, who recognized right away that formaldehyde was a 
serious problem, and FEMA headquarters, particularly FEMA's 
lawyers, who wanted to pretend it didn't exist.
    In March 2006, news articles reported high levels of 
formaldehyde in FEMA trailers. FEMA field staff urged immediate 
action, saying, ``This needs to be fixed today. We need to take 
a proactive approach.'' And there is ``immediate need for a 
plan of action.''
    But when the issue reached FEMA lawyers, they blocked 
testing of occupied trailers. One FEMA attorney explained, ``Do 
not initiate any testing until we give the OK. Once you get 
results, the clock is running on our duty to respond to them.''
    Another FEMA official wrote, ``The Office of General 
Counsel has advised we do not do testing, because it would 
imply FEMA's ownership of this issue.''
    Early in the process, through the perseverance of a 
pregnant mother with a 4-month old child, FEMA did test one 
occupied trailer. The results showed that their trailer had 
formaldehyde levels 75 times higher than the maximum workplace 
exposure levels recommended by the National Institute for 
Occupational Safety and Health. Well, the mother evacuated the 
trailer. FEMA then stopped testing other trailers, and top 
officials issued a statement that said, ``FEMA and industry 
experts have evaluated the small number of cases where owners 
with formaldehyde have been reported, and we are confident 
there is no ongoing risk.'' That is where they stood after they 
stopped testing the trailers.
    In early July 2006, FEMA officials worked with EPA and the 
Center for Disease Control to develop a testing protocol for 
unoccupied trailers that would ``determine formaldehyde 
concentrations emanating from the trailer under living 
conditions.'' EPA officials advised FEMA that, ``The levels we 
find under testing may well be more than 100 times higher than 
the health base level.''
    After receiving this report, FEMA responded by changing the 
testing protocols. Instead of simulating actual living 
conditions, which would show high levels of formaldehyde, FEMA 
directed that the trailers be tested with their windows open, 
their ventilation fans running, and their air conditioning 
units operating 24 hours a day. A leading treatise on 
diagnosing indoor air quality calls testing formaldehyde under 
these conditions meaningless.
    FEMA repeatedly received complaints from occupants about 
high formaldehyde levels, including at least two complaints 
involving the death of occupants, but the Agency brushed the 
complaints aside.
    Although 100,000 families have lived in FEMA trailers and 
manufactured homes, yet the leadership of FEMA refused to take 
even the most basic steps to protect them from toxic 
formaldehyde fumes. Think about it. Families, thousands of 
families who faced the tragedy of Katrina, lost everything, had 
their lives turned upside down, then got another hit from the 
Federal Government when they were put in trailers that had high 
toxic levels of formaldehyde.
    Yesterday, FEMA finally admitted it made a mistake. It 
announced it would begin a program to test occupied trailers 
for dangerous levels of formaldehyde. This is exactly what 
FEMA's field staff urged over a year ago, but it took this 
hearing and the prospect that Director Paulison would face 
tough questions to stir FEMA to act yesterday.
    FEMA exists to serve the public, but it acts as though 
protecting Director Paulison from embarrassment is more 
important than protecting the health of the victims of 
Hurricane Katrina.
    It is impossible to read these FEMA documents and not be 
infuriated. Americans don't mind paying their taxes if they get 
a Government that works, but when that bargain is broken and 
tax dollars are squandered and health jeopardized, frustration 
rises and trust in Government erodes.
    At our last hearing we had Surgeon Generals before us, 
particularly Surgeon General Carmona, and I said that good 
oversight serves two purposes: it should expose Government 
malfeasance and point the way toward reform. These are my goals 
again today.
    I know the documents we are releasing and the testimony we 
will hear will reveal mistakes and misjudgments. We need to 
learn from them to identify what needs to be fixed to protect 
the health of thousands of families still living in FEMA 
trailers almost 2 years after Hurricane Katrina, and we should 
do everything we can to make sure that this disgraceful conduct 
never happens again.
    [The prepared statement of Chairman Henry A. Waxman and the 
information referred to follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. I want to recognize Ranking Member Tom 
Davis for his opening statement, and then we will proceed with 
the hearing.
    Mr. Davis of Virginia. Well, thank you, Mr. Chairman.
    Let me commend Chairman Waxman for agreeing to hold a 
hearing later this month on disaster preparedness, as well. We 
wrote the chairman requesting the hearing, and we appreciate 
his agreeing to examine where FEMA and DHS stand as we approach 
the active part of 2007 hurricane season, August and September. 
A hearing on that important topic confirms our shared interest 
in conducting important oversight. We are both eager to learn 
whether, in today's post-Katrina environment, we are better 
prepared for natural or man-made disasters than we were 2 years 
ago.
    Sadly, thousands of displaced residents still occupy 
Government property, temporary housing in the Gulf Coast 
region. Today we are here to discuss the issue of unsafe levels 
of formaldehyde in FEMA trailers.
    The Select Committee to Investigate the Preparation for and 
Response to Hurricane Katrina, which I chaired, entitled our 
final report A Failure of Initiative, because leadership at all 
levels failed to get the information they needed and failed to 
act decisively to meet the crisis. Among those failures was the 
inability of FEMA to provide timely, short-term shelter and 
adequate long-term housing to those displaced by the 
catastrophe.
    As part of the Federal Government's response to Hurricanes 
Katrina and Rita, FEMA acquired thousands of manufactured 
houses, recreational travel trailers, and larger trailers for 
use by the victims on the Gulf Coast. These temporary homes 
contained walls, cabinetry, and other components made of 
particle board and plywood. The glue or coating used in 
manufacturing or treating particle board or plywood often 
contained formaldehyde, a common chemical used in many 
industrial and commercial settings.
    A naturally occurring chemical, formaldehyde is also a 
byproduct of cigarette smoke. When inhaled in large doses, it 
can cause extreme discomfort and illness.
    Over a year ago FEMA began fielding complaints about 
noxious odors emanating from some of the occupied trailers. At 
that time I wrote Secretary Chertoff asking about the extent of 
the problem. We received assurances the issues were limited to 
a small number of units and it was under control.
    In August 2006, FEMA communicated to the committee in no 
uncertain terms the health and safety of inhabitants was 
driving the Agency's response to the formaldehyde complaints. 
The committee was told FEMA had partnered with leading 
Government experts, both at the EPA and the CDC, to develop a 
robust testing program and incident response system.
    It now seems that what FEMA told the committee was not 
completely correct. Apparently, the problem of unsafe 
formaldehyde levels in FEMA trailers is more widespread than 
initially acknowledged, and FEMA's reaction to the problem was 
deliberately stunted to bolster the Agency's litigation 
position.
    New information recently provided to the committee shows 
these statements mischaracterized the scope and purpose of 
FEMA's actual response to the formaldehyde reports. Recently 
discovered documents make it appear FEMA's concerns were legal 
liability and public relations, not human health and safety. 
Decisions about assistance to Gulf Coast residents seem to have 
been driven by the desire to limit litigation, even if that 
meant limiting genuine testing and risk mitigation efforts, as 
well.
    One internal e-mail from June 2006, reported the Agency's 
Office of General Counsel ``has advised that we do not do 
testing'' because this would ``imply FEMA's ownership of this 
issue.''
    Another attorney advised, ``Do not initiate any testing 
until we give the OK. While I agree we should conduct testing, 
we should not do so until we are fully prepared to respond to 
the results. Once you get results, and should they indicate 
some problem, the clock is running on our duty to respond to 
them.''
    This information is deeply troubling. FEMA was not 
forthright with congressional investigators. It took nearly a 
year and a threat of subpoenas for FEMA to produce all the 
documents the committee requested. After seeing the documents, 
it is pretty clear why FEMA tried to hide them behind dubious 
claims of confidentiality and privilege.
    The information in these documents contradicts what we were 
told all along. Holding them back only highlighted their 
damning significance. Beyond the litigation-centric process, we 
have to be concerned about substantive problems. The causes and 
effects of excessive formaldehyde fumes in housing product 
purchased by the Federal Government has still not been 
addressed.
    Katrina had many hard lessons to teach. One of them was the 
Federal Government's primary response agency has to be 
proactive, nimble, and trusted as the honest broker between 
Washington and those at need at the State and local levels. 
Reading these documents, I am not persuaded FEMA is that agency 
yet. The noxious gas in those trailers should have energized 
FEMA to admit the problem and solve it, not hide it behind a 
fog of risk-averse lawyering.
    FEMA's toxic response to these formaldehyde fumes should 
energize us to demand accountability and push for the reforms 
that will clear the air and improve the Nation's emergency 
response capabilities.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

[GRAPHIC(S NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Davis.
    Let me ask unanimous consent that Representatives Melancon, 
Jindal, and Taylor be permitted to join us at our hearing 
today, even though they are not members of the committee. 
Without objection, we welcome them to our hearing.
    I want to welcome our first panel. We are going to hear 
from Mr. Paulison after this first panel. We are pleased to 
have these witnesses who are willing to travel to Washington, 
DC, to share their experiences with FEMA's trailers with this 
committee. I realize these experiences have not been pleasant 
ones, and I thank you all for being here.
    On this first panel we have Dr. Scott Needle. Dr. Needle is 
a Pediatrician. He obtained his medical degree from Johns 
Hopkins University in Baltimore, and until June 2007 Dr. Needle 
had been a Pediatrician in Bay St. Louis, MS.
    Mary DeVany is an expert in the fields of industrial 
hygiene and occupational safety. She has an M.S. in 
biochemistry from Loyola University in Chicago, and she is a 
Certified Safety Professional in Comprehensive Practices, 
Certified Hazardous Materials Manager, and is qualified as an 
Instructor for OSHA compliance.
    Mr. Paul Stewart was an occupant of a FEMA trailer from 
December 2005 through March 2006. In March 2006 Mr. Stewart was 
the first FEMA trailer occupant to discuss formaldehyde levels 
publicly.
    Lindsay Huckabee and her family have been FEMA mobile home 
occupants since December 2005. She continues to reside in a 
trailer along with her husband and five children.
    James Harris, Jr., is a practicing minister and a small 
businessman. He and his family have been living in a FEMA 
trailer since April 2006.
    We want to welcome each of you to our hearing today.
    It is the practice of this committee that all witnesses 
that testify take an oath, and I would like to ask you if you 
would stand and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    We are delighted to have you here. If you submitted a 
statement to us, that statement will be made part of the record 
in full. I am going to have a clock on for 5 minutes, and I 
would like to ask, if you could, to try to keep to the 5-
minutes. If you run a little over, that is no problem. There is 
a little clock there you can see that is green, and it will 
turn orange when there is a minute left, and red when the 5-
minutes are up, so you might take a glance over at it at some 
point during your comments.
    Dr. Needle, why don't we start with you?

     STATEMENTS OF SCOTT NEEDLE, M.D., AMERICAN ACADEMY OF 
     PEDIATRICS; MARY DEVANY, INDUSTRIAL HYGIENIST, DEVANY 
INDUSTRIAL CONSULTANTS; PAUL STEWART, TRAVEL TRAILER OCCUPANT, 
  DECEMBER 2005 TO MARCH 2006; LINDSAY HUCKABEE, MOBILE HOME 
  OCCUPANT, DECEMBER 2005 TO PRESENT; AND JAMES HARRIS, JR., 
         TRAVEL TRAILER OCCUPANT, APRIL 2006 TO PRESENT

                STATEMENT OF SCOTT NEEDLE, M.D.

    Dr. Needle. Good morning. Thank you, Mr. Chairman, for this 
opportunity to testify today at this important hearing.
    My name is Dr. Scott Needle, and I am proud to represent 
the American Academy of Pediatrics. I serve on the Academy's 
Disaster Preparedness Advisory Council. I am also a general 
pediatrician who was, until recently, in solo private practice 
in Bay St. Louis, MS, an area that experienced some of the 
worst devastation after Hurricane Katrina.
    The American Academy of Pediatrics has grave concerns 
regarding all aspects of the current and future health of 
children on the Gulf Coast who continue to recover after 
Katrina. We appreciate your efforts today to bring attention to 
the potential risks to children's health associated with 
exposure to formaldehyde gas in the trailers provided by FEMA 
after the hurricane.
    Formaldehyde gas is known to cause a wide range of health 
effects. The AAP Handbook on Pediatric Environmental Health 
cautions that ``formaldehyde is a known respiratory irritant in 
the occupational setting,'' and warns that it can also be found 
as an air pollutant in residential settings.
    The Federal Agency for Toxic Substances and Disease 
Registry [ATSDR], states, ``Children may be more susceptible 
than adults to the respiratory effects of formaldehyde. 
Children may be more vulnerable to corrosive agents than adults 
because of the relatively smaller diameter of their airways. 
Children may be more vulnerable because of relatively increased 
ventilation per kilogram and failure to evacuate an area 
promptly when exposed.''
    Studies since 1990 have found higher rates of asthma, 
chronic bronchitis, and allergies in children exposed to high 
levels of formaldehyde. In 2004, the International Agency for 
Research on Cancer, an arm of the World Health Organization, 
classified formaldehyde as a known carcinogen. The U.S. 
National Toxicology Program classifies it as ``reasonably 
anticipated to be a human carcinogen.''
    Formaldehyde is used in hundreds of products, but 
particularly in the resins used to bond laminated wood products 
and to bond wood chips in particle board. Mobile homes and 
travel trailers, which have small, enclosed spaces, low 
exchange rates of air, and many particle board furnishings, may 
have much higher concentrations of formaldehyde than other 
types of homes.
    My concern in this issue stems from my experiences in 
treating children of Hancock County, MS, during the weeks and 
months after Hurricane Katrina. In spring, 2006, certain 
patterns of illness emerged among some of my patients. Many 
children returned repeatedly to my office with symptoms that 
would not go away or would clear up and them promptly recur--
sinus infections, ear infections, cold, and a variety of other 
respiratory symptoms.
    In talking with these families, I found that they shared 
two common characteristics: first, they were all living in 
travel trailers provided by FEMA; second, the families reported 
that these symptoms started not long after moving into these 
trailers.
    Research revealed my patients' symptoms were all consistent 
with exposure to formaldehyde. At the same time, the Sierra 
Club released the results of initial testing, which found 29 
out of 31 trailers with elevated levels of formaldehyde over 
0.1 parts per million.
    Over the subsequent year, I contacted the Mississippi State 
Department of Health, Centers for Disease Control and 
Prevention, researchers at various Gulf Coast universities, and 
others to alert them to the patterns I was seeing. 
Unfortunately, my efforts did not lead to any immediate action, 
and I am, therefore, personally and professionally grateful to 
you for bringing attention to this issue through this hearing.
    The American Academy of Pediatrics remains deeply concerned 
that Gulf Coast children continuing to reside in FEMA trailers 
may have been and may continue to be exposed to levels of 
formaldehyde that are hazardous to both short-term and long-
term health. The Academy urges FEMA and Federal health agencies 
to undertake a systematic, scientifically rigorous study of the 
issue to determine children's exact exposure levels, 
correlation with the reported symptoms, and the practical and 
concrete steps that can be taken to safeguard their health.
    Furthermore, the Academy urges FEMA to set standards for 
formaldehyde levels in trailers purchased by the Agency that 
are consistent with the most current science, including an 
additional margin of safety that takes into account the special 
vulnerabilities of children.
    Finally, the Academy encourages FEMA to explore alternative 
options for providing short and long-term housing to disaster 
victims that would pose fewer health risks than the travel 
trailers currently occupied since Hurricane Katrina.
    The American Academy of Pediatrics commends you, Mr. 
Chairman, for holding this hearing today to call attention to 
the potential hazards of formaldehyde exposure among Gulf Coast 
children residing in the FEMA trailers. We look forward to 
working with Congress to minimize the exposure of children and 
all Americans to potentially toxic chemicals in these and other 
settings.
    I appreciate this opportunity to testify and I will be 
pleased to answer any questions that you might have.
    [The prepared statement of Dr. Needle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Dr. Needle.
    Ms. DeVany, we are pleased to have you.

                    STATEMENT OF MARY DEVANY

    Ms. DeVany. Good morning. My name is Mary DeVany, and I am 
a scientist specializing in industrial hygiene, the recognition 
and control of occupational and environmental health, and 
safety concerns.
    I would like to thank Congressman Waxman, Congressman 
Davis, and the other congressional representatives that decided 
to hold this hearing and attend today.
    I also wish to thank my husband, who is a Wesley Lifebrook, 
a certified industrial hygienist who returned just 5 months ago 
from active duty in Iraq. If it were not for his research, 
knowledge, and support, I could not have been here today.
    I want to share some information to help you take action, 
because we Americans have the ability to give our disaster 
victims safe and secure housing, free from known hazards that 
every American wants and deserves.
    As you know, formaldehyde is a component in manufacturing 
of particle board, press board, fiber board, paneling grooves, 
counter tops, and other materials, including some adhesives 
used to lay carpeting. Since these materials are so common, 
everyone is exposed, to some degree. However, when the exposure 
gets elevated, we experience symptoms including headache, 
dizziness, nausea, loss of sense of smell, and fatigue. 
Respiratory system irritation, nose bleeds, sinus infection, 
throat irritation, coughing, and chest congestion occur, as 
well. Eye and skin itching, burning, and skin eruptions occur.
    Formaldehyde also makes many pre-existing medical 
conditions worse, including asthma, allergies that affect the 
sinuses, chronic bronchitis, emphysema, skin diseases such as 
eczema, and migraine headaches.
    Over the long term, we know that formaldehyde can cause 
changes to certain cells in the immune system. Skin and 
respiratory sensitization can also occur in some people, making 
them have serious health effects with even very low exposures. 
And changes in nasal and nasal pharyngeal cells occur that can 
develop into cancer.
    According to the National Cancer Institute, it may also 
cause brain cancer and possibly leukemia.
    Regarding exposure limits, the scientific community 
recommends limits based on two main groups: adults in the 
workplace and the population at large. Agencies such as OSHA, 
NIOSH, and the military base their limits on the average adult 
worker not sensitized to formaldehyde and--and this is 
critical--people who are exposed for an average of only 8 to 10 
hours per day, 40 hours per week, with the rest of the hours 
each day and week away from the exposure source, so these 
levels can be set much higher because the away-from-the-
exposure-source recovery time assists those people and their 
bodies in recovering from their exposures.
    Levels set by agencies such as the EPA, the ATSDR--Agency 
for Toxic Substances and Disease Registry--and many State 
agencies, as well as the World Health Organization, set 
exposure standards aimed to protect nearly all of our most 
vulnerable citizens, including the elderly, infants, and people 
that are medically compromised. Workplace and military 
standards do not protect this at-risk segment of our 
population.
    Because of concern for the health of individuals living in 
these trailers, over a year ago the Sierra Club began sampling 
trailers in Mississippi. Within a couple of months after being 
informed of the high levels, FEMA had sampling conducted by the 
EPA. The Sierra Club sampled 69 trailers, the EPA tested 96. 
The results were similar: nearly all of the trailers sampled 
had formaldehyde levels at least three times the proposed level 
for healthy, physically fit sailors exposed to formaldehyde on 
a submarine for only 90 days. That population group even 
excludes medically unfit soldiers.
    One of the responses FEMA just implemented was to adopt, 
for new travel trailers, below-hub particle board and powdered 
emissions regulations that only apply to mobile homes. By 
closing this loophole, FEMA is showing commitment to the health 
of the inhabitants of these brand new trailers. However, 
approximately 86,000 people are still living in the old travel 
trailers, and, according to the sample results, most of these 
trailers have unacceptably high levels of formaldehyde.
    So what can you do? Manufacturers can substitute soy-based 
adhesives for formaldehyde-based ones. We can give people who 
are sick different trailers or other temporary housing. We can 
educate trailer occupants on formaldehyde health effects and 
give them options for relocating. We can ensure that people 
without symptoms are removed from hazardous exposures by 
testing all existing trailers before they develop the symptoms. 
And we must require manufacturers to cure an off-gas 
formaldehyde at the manufacturing level.
    In addition, we should test the formaldehyde level in each 
trailer prior to acceptance and delivery of new trailers. We 
should not sell or donate empty, vacated trailers that have 
elevated formaldehyde levels to Native Americans or others 
before ensuring that the levels are safe. There are routine 
procedures to cure formaldehyde in empty trailers that should 
be implemented.
    In conclusion, the elevated exposures to this toxic, 
irritating, and cancer-causing gas in FEMA-issued travel 
trailers has developed into a major public health concern. Now 
that we have recognized the problem, Americans need to take 
prompt, effective action to help these disaster victims and 
safeguard their health. We have the tools. We now need Congress 
to take decisive action. We owe this to our fellow Americans 
who have been victimized again through no fault of their own.
    I am ready for questions. Thank you.
    [The prepared statement of Ms. DeVany follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Ms. DeVany.
    Mr. Stewart, please go ahead.

                   STATEMENT OF PAUL STEWART

    Mr. Stewart. Thank you.
    Mr. Waxman and members of the committee, it is a great 
honor to be here today and discuss the experiences my wife and 
I endured with FEMA and the temporary trailer they provided us, 
while at the same time it is sad that this hearing has to take 
place at all.
    On December 2, 2005, FEMA delivered our camper. When we 
first took possession of the camper we noticed a strong new 
smell inside the camper. We aired out the camper as FEMA 
instructed, turning on the heat, opening the windows, turning 
on the exhaust vent. The camper stayed that way for the next 4 
months.
    The first night we stayed in the camper, my wife woke up 
several times with a runny nose. At one point she turned the 
light on and realized that her runny nose was actually a bloody 
nose. I was also beginning to show symptoms of my own, which 
included scratchy eyes, scratchy throat, coughing, and runny 
nose.
    The symptoms we had continued for weeks, then months, and 
we finally thought about just leaving, but at the time we 
couldn't leave. We were still fighting with the Army Corps of 
Engineers, with FEMA. We had debris all over our yard. Money 
was short, and we were stuck.
    Then one morning when I woke up I found our pet cockatiel 
was very lethargic, unable to move. He was regurgitating, 
unable to keep his balance. I immediately called the 
veterinarian, who told us to get him out of the camper 
immediately, so we did. We took him outside. We got ready to 
leave, and within an hour the bird was beginning to get better. 
He wasn't better, but he was getting better.
    We took him to the veterinarian, who told us that the 
camper was probably making him sick. We asked him how that was 
possible, and he said, well, there are many chemicals inside 
the camper, especially a new one. He said that formaldehyde was 
the most likely cause. He said if we don't get the bird out of 
there, the bird will probably die. He explained to us that 
birds, much like children, breathe much more rapidly than 
adults and they take in much more of the toxins that are inside 
the camper, and that he is going to show symptoms before we do, 
but that we should also get out.
    From that point on we kept the bird outside as often as we 
could, and we really do believe that bird saved our lives.
    At that point I started to research formaldehyde and 
started to find out what formaldehyde could do to us and others 
like us who were living in these campers. What I found out 
almost immediately is that the EPA lists formaldehyde as a 
carcinogen.
    There was also a common problem inside the campers, in that 
all the smoke detectors inside the FEMA campers would go off 
for no reason at all. You would go into FEMA campers and find 
the batteries ripped out, smoke detectors torn off the wall, 
and so forth. What I found out was that formaldehyde can set 
off smoke detectors. I checked with a firefighter friend of 
mine who knew someone in the industry, and they did confirm 
that formaldehyde at high levels will set off smoke detectors.
    I then called FEMA and talked to them about the problems, 
and they told me to ``air out the camper.'' I explained to them 
that I had been airing out the camper for 4 months, and they 
said, well, continue to air out the camper. They also told me 
that some people are just ``more chemically sensitive than 
others.''
    That statement kind of made me angry. As a former U.S. Army 
infantry officer and as a former police officer I have been 
tazed, pepper sprayed, I have been through CS gas chambers, and 
I do not consider myself to be a chemically sensitive person.
    Anyway, I started to look for ways to mitigate the problem. 
What I did first was I tore out all of the exposed particle 
board I could find. I replaced it with pine plank. That did 
nothing. I then went ahead and bought some ferns that the Space 
Center said to use to try to reduce formaldehyde. That didn't 
work, either. I then got a substance used by the mortuary 
business to try and absorb formaldehyde. That didn't work. Then 
I purchased an air purifier, a professional one, 15 pound 
charcoal filter. It moves 400 cubic feet of air per minute, and 
it is designed to cover 1,500 square feet. That also had no 
effect.
    Eventually I ended up testing my own camper, after I called 
FEMA numerous times and asked them to help and they refused. 
When I tested my camper, I found a company called American 
Chemical Sensors out of Boca Raton, FL. They mailed me a test 
kit and actually told me that I should get out of the camper 
when they heard of our symptoms. They said our symptoms made it 
look as though we were having formaldehyde poisoning.
    I got the sensor, hung it inside the camper, and took it 
down and mailed it back to the company. When they got the 
results, the results were 0.22 parts per million, or twice what 
the EPA considers safe.
    I called FEMA and told them what was going on, and they 
told me that, ``I should be happy with the camper that I have, 
and that we do not have any other campers to supply you.''
    I couldn't believe what FEMA was telling me. Essentially 
they were telling me that they were going to do nothing about 
the problem, even though I had already alerted them that what 
we were living in was cancer causing.
    During this time I also started to dig around, and what I 
did find was an OSHA study dated October 11, 2005, 43 days 
after Hurricane Katrina. The OSHA study tested outside ambient 
air at a Pass Christian trailer holding facility. That outside 
ambient air tested as high as five parts per million--not 0.5 
parts per million, but five parts per million outdoor ambient 
air.
    I called FEMA, told them what I had found, and again they 
told me, sorry, there is nothing we can do for you.
    At that point I called the local television station, and 
they decided to run the story. The next morning at 8 I got a 
call from FEMA, who told me that they were on their way with a 
new camper.
    The new camper arrived, and when it did the FEMA 
representatives arrived shortly before the camper did and 
wanted to cut my sewer lines, my water lines, and pull my 
camper out. I refused. I wouldn't let them.
    When the camper showed up, it showed up in front of the 
driveway. I walked outside. I didn't even walk up to the camper 
and I could smell the formaldehyde from my driveway. The 
workers who delivered the camper also said they could not go 
inside, the formaldehyde was so bad.
    I told them to take the camper and go home. I didn't want 
it.
    At that point FEMA called me at one point and said, ``What 
are we going to have to do to make you happy?'' And they said 
also, ``So you didn't refuse it because of the type of camper 
it was?'' During that conversation they also wanted to record 
my conversation with them, which I thought was kind of strange. 
I worked in police work a number of years, and I can tell you 
that what it sounded to me like was that they were trying to 
get together a chain of custody. They were trying to put 
together evidence. I felt like a criminal.
    Anyway, I refused that camper, and at that point FEMA 
brought me another new camper. I know I am running out of time, 
sir. I apologize. When they brought me the third camper I got a 
call, and they said, we are going to bring you a camper. We 
have inspected this camper. There is no formaldehyde inside 
this camper.
    My wife and I were pretty excited. They said, we have had 
people go through this camper, and we can assure you this 
camper is brand new. They talked about the options that were in 
the camper and so forth. My wife and I said, we are not really 
concerned about the options; we just want a safe place to live.
    They brought out the camper to us, and when the camper 
showed up they had approximately 15 FEMA people on my property. 
There was a public relations person there. There were officials 
there. Anyway, they brought the camper in, they convinced us. 
The public relations woman convinced us that the camper was 
fine, there was nothing wrong with it, there was no 
formaldehyde in it, so we let her take our old camper.
    They delivered the camper, and the people went about 
setting it up. It took them most of the day, and by the time my 
wife and I got in there it was dark. When we went to go inside 
the camper, the public relations woman said, ``OK, I can't stay 
around any longer, I have to leave,'' so she left.
    When she left, my wife and I realized immediately upon 
entering the camper that it was not new; in fact, it was used. 
The stove was dirty, the floors were dirty. It was filthy 
inside.
    I said to my wife, we can clean this. Let's just get to 
work now, we can get it done before bed.
    The first thing I did was take back the bed sheet, and when 
I did I noticed there were bugs inside the bed, literally bugs 
in the bed. I called the public relations woman back and said I 
can't sleep in this bed, and she said, well, there is nothing I 
can do for you, it is a Friday. I won't be able to help you 
until Monday morning.
    I explained to her that if I can't have a place to sleep, I 
am going to have to go back living in my truck again. She said, 
I'm sorry, there is nothing we can do for you. You are going to 
have to do what you have to do.
    I said, there is absolutely nothing you can do for me? She 
said, well, I can get you a hotel room in Pensacola, FL, but I 
can only put you in there for one night.
    I said, ma'am, I am in Bay St. Louis, MS. To get to 
Pensacola, FL, right now, it would be 2 until I get there, and 
for one night it is just not worth my time. She said, well, 
then, you are going to have to wait until Monday. We will take 
care of you on Monday.
    Anyway, this went back and forth and back and forth for a 
long amount of time with FEMA. It wasn't long after that I was 
visited by two members of FEMA. They showed up at the house on 
Sunday night and said they wanted to see the camper. The one 
person who showed up identified himself as the head of the 
Mississippi camper program. He said to me that FEMA will do 
whatever it takes to fix the problem. He said if he had to have 
10 workers work 2 days straight, he would take care of 
everything.
    The interesting thing with this conversation is that I 
asked him at one point where he was staying. He was from out of 
State. He said, I am renting a gutted apartment in Gulfport. He 
wasn't staying in a FEMA camper, he was staying in an apartment 
in Gulfport, taking up rental housing that really should have 
gone to the residents of the Gulf Coast.
    After going through this for a number of days and spending 
5 more days in my truck in my driveway, I finally had enough 
with FEMA and I told them to take their property and get off my 
land. At that point they came back and took their camper, and I 
went out and purchased my own camper, which I will tell you is 
formaldehyde free.
    The interesting thing about that camper is my wife and I 
paid $50,000 for that camper. It has a king-sized bed, a 
fireplace. It has a washer and dryer. It has computer work 
stations. It is a very large camper with three slide-outs, very 
comfortable. From everything I have read up to this point, FEMA 
has paid approximately $65,000 for each one of the campers that 
they supplied to Gulf Coast residents after the storm.
    As I sit in front of you today I just want to say that I am 
one of the lucky ones. My wife and I are safe now, we are out 
of our camper. We are no longer exposed to that level of 
formaldehyde, but there are tens of thousands of people who are 
still there living in those campers every day.
    In conclusion, I just want to say that we lost a great deal 
through our dealings with FEMA, not the least of which is our 
faith in Government. I can truly say that a buzz term that has 
been used around Washington for a long time is a culture of 
life, and I just think that a culture of life really just ends 
up being rhetoric when you see things like this. It is not the 
real world, and in the real world you are on your own.
    Thank you.
    [The prepared statement of Mr. Stewart follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Stewart.
    Mrs. Huckabee.

                 STATEMENT OF LINDSAY HUCKABEE

    Mrs. Huckabee. I would like to start by thanking Chairman 
Waxman and members of the committee for taking the time to 
address this important issue.
    My name is Lindsay Huckabee. I live in Kiln, MS in a FEMA-
provided mobile home with my five children and my husband. On 
August 29, 2005 we lived in an apartment in Pass Christian. We 
learned days later that our apartment and all of its contents 
had been destroyed. We contacted FEMA, and they told us that, 
because of our family size, we did qualify for a single-wide 
mobile home. We were very excited and felt very blessed.
    We were told that if we cleared the site, provided our own 
septic, our own water, and our own electricity, that they would 
deliver the camper. We had everything ready by mid-November.
    On December 14th our new home was delivered and set up. We 
realized upon moving in that there was a strange smell to it. 
It made our eyes water, our throats itch. We had numerous 
respiratory problems, but we had never had a new trailer 
before, we just assumed that it was the plastics and all that 
kind of stuff.
    I began having migraine headaches and pre-term labor. My 
daughter, who had been asthma free for about a year--we had 
just discussed on August 3rd, her 4 year checkup, that she had 
probably outgrown it--began having asthma attacks. Three of my 
children began having severe nosebleeds several times a week. 
My husband began having problems with his sinuses, as well.
    After 3 weeks of pre-term labor, stopped by medication, our 
youngest son, Michael, was delivered 4 weeks early. All of my 
other children were born on time.
    We brought him home from the hospital. He was healthy. 
About 3 days after being home, his sinuses became congested. 
Today he is 18 months old and his sinuses have not cleared up 
for more than a week or two at a time.
    My daughter, Lelah, who was 4 when we received the trailer, 
had most of the problems. She has had pneumonia several times. 
She has had more ear infections than I can count. She has been 
put on steroids, breathing treatments. She has been sent to the 
hospital with pneumonia and been hospitalized three times to 
date. She was sent to an ENT, where she underwent allergy 
testing, and MRI of her sinuses, and they put tubes in her ears 
so that the excess fluid her sinuses were producing could 
escape.
    The only thing that he had to say whenever I asked about 
the allergy test was that she was allergy free and there seemed 
to be some kind of irritant that she was being exposed to. He 
then asked me if we were living in a FEMA trailer. I told him 
we were. He said that there were chemicals in those trailers 
that could be making children sick. He said it was too early to 
tell, but he had seen an increase in patients repeatedly with 
the same problems.
    We took Lelah to an allergy and asthma specialist. They did 
another allergy test and found nothing. I never thought that I 
would be upset to hear there was nothing wrong with my child, 
but if it was an allergy, at least we had something we could 
fight. The idea of our home making us sick was not really 
something that we were ready to grasp, since we had no other 
place to go.
    The allergy/asthma specialist had also seen an increase in 
patients with mild to moderate asthma becoming very severe.
    After an inhaled steroid twice a day, an oral steroid, and 
allergy medication once a day, Lelah's asthma is now under 
control. Lelah missed 42 days of kindergarten this year. I had 
to deal with the truancy officers at school, even though all 
but three of these days were excused by doctor's visits, 
hospitalizations, and surgeries.
    The school nurse has called me more times than I can count 
to go pick her up because of a nosebleed that wouldn't stop and 
fevers that were caused by ear infections that wouldn't go 
away. Looking back, she would have been better off staying at 
school than coming home to the environment that was making her 
sick.
    After months and months of office visits and phone calls, I 
was frustrated. I came home one afternoon and found my 
daughter. Her hand was over her nose. She was covered in 
blood--her hand, her arms, her shirt. The most frightening 
thing later, when I thought about it, was I didn't rush to her. 
Not for a second did I think there was anything wrong with my 
kid other than a nosebleed. It was very sad to me, but I have 
gotten to the point where it is a common practice to see my 
child covered in blood and it not scare me.
    Our pediatrician had made a link also with the FEMA 
occupants and the patients having increased problems. It was 
through him that I was contacted by the Sierra Club to do a 
formaldehyde test on our trailer. We did the test. It came back 
at 0.18 parts per million, almost two times the recommended 
limit. This was after 16 months of living there, after airing 
out our trailer, after running the A/C nonstop, opening windows 
and doors whenever we weren't home, so I can only imagine what 
it was for the 16 months that we were there beforehand.
    Three weeks ago my husband was having his teeth cleaned and 
they found a mass in his soft palette. They referred him to an 
ENT. He had a CAT scan. The ENT said that he needed to go in 
and have it removed immediately. The mass ended up being a 
polymorphic adenoma tumor. While no one can say for sure if it 
was caused by formaldehyde or not, my husband is an otherwise 
healthy, 30 year old, non-smoking man.
    This is something that the ENT said that could be the 
beginning of what we will see on a long-term basis for the 
formaldehyde exposure.
    What makes me so angry is that FEMA is providing these 
trailers to disaster victims. They said that they have 
inspected these trailers and deem them safe. I do not believe 
that FEMA set out to harm people of the Gulf Coast. I have to 
have more faith in our Government than that. But I do think it 
was handled very poorly whenever they were notified.
    We had contacted FEMA over and over again about something 
making our family sick and several problems, and we were met 
with much resistance. Whenever we told them about our levels of 
formaldehyde, they replaced our trailer in June of this year. 
We had that formaldehyde tested, as well, and it is still over 
the limit. Whenever we called FEMA, the level is lower than the 
other one was, and she said, So we are good, right? We are not 
finished moving into this trailer, and I don't believe we will. 
I think that it is very silly to expose my children to this 
unnecessary risk. And we were told ahead of time that this 
trailer was completely formaldehyde free, it was used, it was 
built in 2005 by a different manufacturer.
    In closing, I would like to say that I represent probably 
the median of the problem. There are people who are in severe 
cases and far worse than mine. It is scary to me that people 
who don't know about formaldehyde don't know what to look out 
for, because if you look at the nosebleeds, the colds, the 
sinus infections separately, you just think that your kids are 
staying sick.
    I asked my pediatrician more times than I can count--my 
house is clean, I am keeping away from people who are sick. 
What can I do to keep these kids healthy? It is so frustrating, 
as a mother, to go back and forth, and it feels like you are 
failing whenever you can't keep your kids out of the hospital 
and you can't keep them from getting sick. I think that the 
other people of the Gulf Coast need to be publicly notified of 
what symptoms to watch for, because they could be silently 
suffering and not realize what is making them sick.
    [The prepared statement of Mrs. Huckabee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mrs. Huckabee.
    Mr. Harris.

                 STATEMENT OF JAMES HARRIS, JR.

    Mr. Harris. I would first like to thank God for truly 
blessing me to be here today before you at this time in our 
history. I would like to thank the chairman and members of the 
Oversight and Government Reform Committee for the opportunity 
to share my experiences with you at this time.
    My name is James D. Harris, Jr. I am 46 years old and I 
have been blessed with a wonderful wife of 17 years named 
Aretha. God saw fit to bless us with a son who is 6 years old, 
and his name is James D. Harris III. Of course, we call him 
Tre'.
    I am self-employed with Agape Trade Graphics in Marketing 
Group, and I am also a minister of the Gospel. I have been 
blessed to have been in the ministry for over 20 years, 
focusing those efforts mainly in the southern region of the 
United States. My small business was established in 1999 and 
continued to grow until the disaster known as Hurricane Katrina 
came on the Gulf Coast.
    Since the hurricane, my business has diminished and my 
ability to prosper from that endeavor has been hampered by 
overall economic recovery here on the Gulf Coast. I was blessed 
to start a nonprofit organization named the Guardian Angel 
Adoption Program, with the Web site address of 
www.guardianangelprogram.org. It has been a blessing to many 
families here on the Gulf Coast. The nonprofit endeavor was 
formed after witnessing the unfortunate oversight of many 
families and seniors who were tragically left behind or out of 
the recovery and rejuvenation efforts of some of the other 
agencies here on the Gulf Coast. I must state for the record 
there is still a great need of services for people like these 
in the public at large, especially here on the Gulf Coast.
    If someone would have told me 3 years ago that I would be 
living in a FEMA trailer with my wife and son, I just wouldn't 
have believed that. But the reality is that I am in a FEMA 
trailer and have been living here since April 2006 until now. 
Many people that I come in contact with are in the same 
position that my family and I are in now.
    I must state for the record that I am thankful to have a 
roof over my head and shelter from the elements. I just want to 
say that it is a blessing to have somewhere to stay. By nature, 
I am not one to complain about my circumstances or situations 
that I find myself in from time to time, when God has allowed 
me the strength to endure and to maintain as much as possible, 
especially during the trying times after Hurricane Katrina.
    I must say I have never witnessed first-hand in my life the 
overpowering devastation that one event could have on so many 
people.
    With all that being said, my life has been changed, as so 
many others have during the aftermath of Hurricane Katrina, and 
I must say I will never be the same again.
    My family and I have experienced many challenges in pursuit 
of getting the FEMA trailer we now have. Time will not permit 
me to address some of those challenges, but I will say that I 
have exercised every bit of knowledge that I have experienced 
and plain old luck to get in position to be in the facility at 
this time.
    When my family and I entered into the trailer in April 
2006, we noticed a pungent and overpowering odor that permeated 
through the whole FEMA travel trailer. You must understand that 
the three of us are living in a space less than 50 square feet. 
There is one bathroom, and only one door for access in or out. 
We also noticed that our eyes burned and watered as we tried to 
inhabit the trailer facility.
    We were told by the persons who gave us the keys to the 
trailer initially that if we opened the doors and windows of 
the trailer and allowed the trailer to air out for a period of 
a couple hours, that all the odors and the burning sensations 
of our eyes would pass and would not come back.
    Over a period of time and to this day we have found that 
this remedy did not remove the strong odors that we now know to 
be formaldehyde. On many occasions my wife and I contacted the 
FEMA maintenance number to register our concerns and express 
our displeasure in the frequency and the magnitude of the odors 
and the visual challenges that being in the trailer presented 
when these conditions existed. The reply we received from the 
FEMA maintenance call center was the same, stating, You need to 
allow the trailer to air out when you smell these odors. There 
was never any attempt that I know of to physically try to 
address this concern.
    There were other physical conditions that have arisen 
inside the trailer and outside the trailer, and they have for 
the most part been addressed, but this particular issue seems 
to have continued to be addressed to us in the same fashion.
    Now, you must also understand that my family and I stayed 
in one room on the north side of my parents' home after 
Hurricane Katrina. The southern exposure of my parents' home 
was compromised and destroyed by the hurricane's fury. My 
parents, my brother and his wife and two sons, and my family 
and I existed in the room of my parents' home for 8 months. So 
when we were finally able to get in a FEMA trailer, we were so 
thankful and continued to try to make things work.
    I never realized until late that we might even have the 
possibility of being moved into another more adequate and more 
environmentally safe trailer. Not being aware of that fact, I 
know that this is one of the main reasons why, after notifying 
FEMA maintenance in about the formaldehyde and how it was 
affecting us on numerous occasions, we just decided to make the 
best of the situation.
    I must note at this point that we noticed often that the 
company that FEMA was contracting the maintenance trailers were 
in charge of that particular process were changing almost every 
2 weeks. This frequent changing of the guards I believe 
affected the way in which the situation was handled, and 
eventually never truly was addressed.
    I would notice, along with my wife, that if we ever left 
the home for more than 5 to 6 hours, when we returned the 
smells and odors would sometimes be overpowering. This means we 
had to air out our trailer on several occasions, losing time 
while we were waiting for the air quality to resume to some 
level of acceptability, and we figured this was to be our 
accepted existence in this FEMA trailer. This happened many 
times during our occupancy of the trailer.
    While I felt there was no other avenue available to me, I 
had to find a way, with God's help, to make the air quality in 
the trailer the best that I could. I purchased an Oreck XL 
tabletop professional air purifier in July 2006, for $469.95. I 
had to borrow the money to purchase this air filter, but I did 
what I felt I had to do to protect my family to exist day to 
day. Without this filter, I don't even know if we could have 
been in the trailer at all.
    Let me close in saying this: since we have been in the 
trailer, we have had to nebulize our son several times, and my 
wife and I believe this goes directly to the lack of air 
quality at times in the trailer. My wife has also had bouts 
with breathing, and I have had several respiratory incidents, 
the latest of which occurred on Thursday, July 12, 2007. The 
smell of the formaldehyde was so strong and so overwhelming 
that my eyes and my family's eyes were discomforted and we just 
opened up the windows and everything, and it got so bad that 
this past Tuesday I actually had to go to the emergency room.
    I am not going to read the rest of the statement. You have 
it for the record. But in closing I would like to say to you 
all I didn't even know the Government was concerned. When I 
found out about this, I just want to let you know I am thankful 
to know that somebody is concerned. When you are helpless, it 
is one thing; but when you are hopeless, it is something else. 
So I hope that something is done about this problem.
    I am free to answer any questions that you might have.
    Thank you.
    [The prepared statement of Mr. Harris follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Harris.
    I want to thank all of you. It is not easy to come and 
testify before Congress, sharing your experiences which were 
not happy ones, but it is important that you are here, and this 
is a very helpful presentation.
    I am now going to recognize Members to ask questions, and I 
am going to start with myself.
    You told us just compelling stories of what happened to 
your families. I guess the question we want to know is, are 
these isolated incidents, or are they widespread? Dr. Needle, 
do you have any information about that?
    Dr. Needle. Yes, Mr. Chairman. It has been very difficult 
to get a handle on the numbers, and part of this is because, as 
the other presenters have testified, the symptoms are not 
anything, in and of themselves, unusual. They are very common 
things. Myself, as a pediatrician, this was part of the problem 
that I ran into is I would try and go back to my medical 
records or try and pinpoint who might be suffering. They were 
having colds and sinus infections----
    Chairman Waxman. So a lot of people would suffer. Kids 
would come in to see you and they wouldn't associate it with 
the formaldehyde.
    Dr. Needle. Exactly.
    Chairman Waxman. Is that right, Ms. DeVany?
    Ms. DeVany. Yes, sir. Exactly.
    Chairman Waxman. And some of you said thousands of people 
are living in trailers. Is that an accurate statement, Ms. 
DeVany?
    Ms. DeVany. I would say it is certainly accurate or even 
more than accurate. It may be more like tens of thousands. The 
trouble is almost every trailer that FEMA sampled unoccupied, 
continuously ventilated for 3 weeks, almost all of them had 
elevation levels 100 times the recommended exposure limits.
    Chairman Waxman. Those were trailers that were not 
occupied, with the windows open, the air conditioning going, 
and then at still very high levels?
    Ms. DeVany. Extremely high levels. And, like I said in my 
testimony, the Sierra Club's efforts were similar. Almost all 
of the trailers had elevated levels that not only would not be 
allowed in the workplace for normal, healthy adults who were 
able to leave work and not be exposed, but certainly dangerous 
levels for our more fragile and sensitive segments of the 
population--children, adults with compromised immune systems, 
other preexisting skin conditions, respiratory conditions.
    And in that same vein, I am very, very concerned, as an 
industrial hygienist, about the people who have never 
complained about problems, who are afraid to complain about the 
problems for fear their trailer will be taken away from them, 
or don't have the money or speak the language well enough or 
have any idea who to turn to or where to go for help.
    Chairman Waxman. That is very much of a problem.
    Ms. DeVany. From these samples, we know a vast majority of 
these trailers have levels way too high for anyone to live in.
    Chairman Waxman. That is the story of the vast majority. 
You know because you have done vast sampling of it, but we know 
only of one instance where FEMA sampled a trailer, and that was 
a case where, according to their documents that were submitted 
to us--maybe they sampled others--that was a trailer that was 
occupied by Carlton and Dawn Sistrunk, a husband and wife with 
a 4-month old daughter. Sistrunk was also 2 months pregnant. We 
got a signed statement from her that she complained and 
complained and complained, and in February 2006 they sent 
somebody out to test it. After they went out there and tested 
that trailer, they found formaldehyde levels of 1.2 parts per 
million, and she was told not to re-enter her trailer. It was 
75 times higher than the guidelines for formaldehyde exposure 
set by the National Institute of Occupational Safety and 
Health.
    In that case, after that case the FEMA people out on the 
field were saying this is a real problem, we have to do 
something about it. But after it got to the Washington people, 
the thing that we see consistently is that they wanted to 
ignore the problem. They just wanted to act as if it didn't 
exist. So what we had is indifference to the suffering of 
people who are already suffering because of Hurricane Katrina, 
and this is from an agency that is supposed to serve the 
public.
    We found in the documents that the Washington FEMA lawyers 
told their field staff, Do not initiate any testing until we 
give you the OK. Once you get results, should they indicate 
some problem, the clock is running on our duty to respond to 
them.
    It looks like they thought their duty was not to respond, 
not to know, to just be ignorant, to let people suffer. In 
fact--I thought this was remarkable--according to one internal 
FEMA e-mail that read, ``According to HQ, there are no health 
concerns associated with the formaldehyde inside our FEMA 
mobile homes, travel trailers.'' That is what they were saying, 
that there were no health concerns.
    Well, that just belies what the medical political and the 
others who suffered directly from the formaldehyde let us know 
from their own experience.
    Dr. Needle. Mr. Chairman, if I may?
    Chairman Waxman. Yes.
    Dr. Needle. I think we have been calling on the Gulf Coast 
for some time that the reason, for instance, I cannot give you 
a straight answer as to how many people are affected by this 
problem is the short answer is we don't know. I think it 
warrants a study to find out exactly how many people are 
suffering, how many have come forward to FEMA or to the media 
or other agencies, and how many are, as Ms. DeVany said, 
basically suffering in silence. We don't have the answers to 
that.
    Mr. Harris. And may I say to that----
    Chairman Waxman. Yes, Mr. Harris.
    Mr. Harris. Mr. Chairman and other Members, when you don't 
know what to do, you tend to try to make the best of the 
situation. When they talk about people suffering in silence, I 
think that people don't know what to do so they make the best 
of the situation because, even when they come to do the 
inspections--and they did an inspection with us about a week 
ago--we complained again. They said, well, we are not the ones 
that handle that. You need to call the FEMA call center and let 
them handle it. But when you call them, they tell you that you 
need to get with the inspectors. So we don't even have a direct 
line of who to actually call to find out how to handle the 
situation.
    I would say to you we need to know what to do and who to 
call so that we can try to make a change.
    Chairman Waxman. Absolutely. This is Government bureaucracy 
at its worst. It is the Government failing the people who have 
already suffered from the hurricane and are now suffering from 
the health danger.
    I want to move on to the other Members, but I am sure you 
will get a chance to answer some of these points or make some 
more if you want.
    I would like to recognize Mr. Issa first, but can I ask 
unanimous consent to put a statement in the record by the 
Manufactured Housing Institute, which talks about their 
standards for building, and a statement by Lee Shull, who is a 
principal toxicologist and risk assessor. Without objection, 
that will be put in the record.
    [The prepared statements of the Manufactured Housing 
Institute and Lee Shull follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Without objection, I would like to ask 
unanimous consent that the affidavit that we have from Carlton 
and Dawn Sistrunk be made part of the record, as well. Without 
objection, that will be the order.
    [The prepared statement of Carlton and Dawn Sistrunk 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Five minutes of your time you are yielding 
to Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for 
holding this hearing today. I don't often get an opportunity to 
say not only is this a bipartisan or even a nonpartisan issue, 
but it is one that we are only just beginning to touch.
    Mr. Chairman, I am going to beg your indulgence and say 
that at this point I have no doubt that, either through public 
hearings or through staff research, we are clearly going to 
have to do a followup on the effects of formaldehyde, since 
there seems to be a dichotomy between what our own Government 
says the effects are and what we are hearing here today.
    I would also ask that at least on the merits on paper that 
we do a followup on the industry that produces these products. 
I think they are not being heard from here today, and they may 
very well be unfairly tarnished for what happened in this case.
    Having said that, it is very clear that we need to direct 
FEMA to find out why these trailers, in an industry in which 
people routinely purchase both travel trailers and single-and 
double-wide relocatable homes and have no such problems that I 
am aware of--and it is millions of homes in America--why these 
particular trailers or a large sub-section of these trailers 
enjoyed this elevated level. I think that we have to direct 
FEMA to hold some accountability as to the specific 
manufacturers who delivered these products, which again goes to 
the question of virtually universal testing to find out where 
the shortcuts may have been taken.
    Last, but not least, I have taken the liberty--and my 
questions will be directed in this way--of reading ahead the 
FEMA Administrator's opening statement. It may surprise all of 
you, if you haven't had a chance to read it. I will give you 
something that may surprise you, and I am hoping that the 
Administrator will rethink his opening statement. It includes 
such things as, ``Only 58 trailer units have been replaced 
because of formaldehyde concerns, 18 in Louisiana, 30 in 
Mississippi, 8 in Texas, 2 in Alabama. Five additional 
formaldehyde complaints in Mississippi and Texas have resulted 
in occupants being moved to rental housing resources.'' I guess 
the number goes up ever so slightly.
    This relatively cavalier statement about the problem being 
that small because of the only people who have been resolved 
might, in fact, show us that FEMA has a large problem, is 
reducing it, and their opening statement talks in terms of 
cosmetics, show polishes, and other things which use 
formaldehyde as though these are self-induced elevated levels.
    Without going into the entire statement, and with that 
warning to the next panel, are any of you surprised that only 
58 plus 5 are, in fact, of concern today to FEMA? Mrs. 
Huckabee. Anyone.
    Mrs. Huckabee. I would like to say that I am not overly 
surprised that many have been replaced, considering the fact 
that it took about 14 months of constant complaining saying 
something is making us sick for them to get around to it. I am 
kind of disappointed. And pardon me if it was not intended that 
way, but it sounds like they are using that number to minimize 
the problem, rather than say this is what has been solved. That 
I find highly disappointing.
    Mr. Issa. When you are looking at the people, the three of 
you that dealt directly with FEMA representatives, they offered 
you alternate trailers. They eventually did give you an 
alternate trailer.
    Mr. Stewart. Yes, sir.
    Mr. Issa. But apparently they were willing to expend a 
considerable amount of money. Are you of the belief that this 
was a resource limitation, because we on this side allocated a 
considerable amount of money. Do you believe that it was 
resource or authority limited, if you can use those two, for 
those who were directly affected.
    Mr. Stewart. It was authoritative. In fact, it is very 
difficult to go through a statement like this with the time 
limitations, because you don't get across what really happened 
to you. What happened to us was a very long process, and it 
would take us most of the day to discuss it. But, from the 
statements they made to me, they were degrading. It was like we 
were asking for something else, like they were giving us 
something.
    I told people over and over again, we are just like every 
other taxpaying citizen in the United States that just happened 
to lose everything we own in the span of a couple of hours.
    You know, we are not just alone. At the beginning of the 
statement I was actually going to read it, and I didn't for 
time's sake, but one of the things I was going to ask everybody 
up here to understand, and even the people who are behind us 
who are going to testify next, imagine when you left your house 
this morning, you made sure the stove was off, you locked up 
your house and made sure everything was in its place, and when 
you go home tonight your house is gone and everything that is 
in it is gone, and your neighbor's house is gone, and your 
neighborhood is gone, and your town hall is gone, stores, 
everything.
    We didn't ask for this, but the way FEMA treated us was as 
if we were charity cases; that when you called them with a 
problem, it wasn't a problem to them. To them you were asking 
for something better. That is the context they took when you 
asked for help.
    Mr. Issa. Mr. Stewart, even though you were an infantry 
officer and I was an armor officer, I just want to quickly ask 
you, You know how the culture of a chain of command works.
    Mr. Stewart. Yes, sir.
    Mr. Issa. Can you give us a strong assurance, based on the 
numerous people you worked through, that, in fact, we are 
dealing in, in fact, a culture of the chain of command, or did 
other factors play a part?
    Mr. Stewart. It was definitely a culture of chain of 
command. They would do things like, ``I have to call someone. I 
will call you back.'' It was definitely they were working their 
way up the chain of command to find out what the answer was 
they were supposed to give.
    You know, at some point in time--and it is the one thing 
they taught all of us in officer training--when in doubt, make 
a decision. You have to allow first-level managers to make 
decisions about problems that are happening right now on the 
ground that could affect the health and welfare of people, and 
they didn't give those people that authority. It would take 
days sometimes to get an answer from somebody because they were 
calling probably all the way back to Washington to get an 
answer before they could tell us what they were going to do. 
That is not the way to treat people who are having life-
threatening problems.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Issa. Thank you, Mr. Chairman.
    Chairman Waxman. Mr. Cummings.
    Before you begin, Mr. Cummings, let me point out, because 
the question was what the industry had to say, the Recreational 
Vehicle Industry Association submitted for the record a 
statement, a toxicology report, and in that report the industry 
said that the very high levels of formaldehyde were not 
harmful. I just wanted to note that. Their toxicology report is 
part of the record.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all I want to thank all of our witnesses for being 
here. Mr. Stewart, Mrs. Huckabee, and Mr. Harris, let me say 
that I think it was you, Mr. Stewart, that said ``I have lost 
my faith in Government.'' Then you said something that really 
kind of struck me. You said in the real world you are on your 
own. But that is not the way the United States is supposed to 
be. When our people get in trouble, just like you just said, 
the Nation is supposed to come to their rescue, and you should 
not be treated like you are not a citizen of this country, and 
for that I think we all have to straighten that out.
    To Mrs. Huckabee, you said, ``I do not believe that FEMA 
set out to do harm.'' And one of the other things that you said 
was, ``What can I do to stop my children from being sick?'' 
Well, the fact is that FEMA should have asked the same 
question: how can they make sure that you and your family are 
safe?
    And then to you, Reverend Harris, you talked about 
helplessness and hopelessness. That goes back to the line of 
questioning that just took place, Mr. Issa's questions.
    I think part of the problem here--and we have to keep this 
in mind--there are a lot of people who are helpless. They feel 
helpless and they feel hopeless, and they have already come 
through one storm, and they are just trying to figure out how 
do they survive from day to day, so rather than complain they 
go through the process.
    Then, going back to something you said, Ms. DeVany, we have 
a situation where they have children. I am telling you I was 
here shaking my head, the thought that someone would put 
children in that situation. I don't care who you want to blame 
for it, whether you say it is the top, the bottom, the fact is 
that this should not happen in the United States of America. It 
should not. We can send people to the moon, damn it, we ought 
to be able to protect our people and make sure our people are 
safe.
    Now, the committee has been over it. Again, we have been 
hearing this stuff about ventilation. I just want to ask a few 
real quick questions.
    After receiving the results of this testing, FEMA has 
repeatedly argued that ventilating is a viable option for 
addressing high formaldehyde levels. For example, in an 
official statement released to the public on March 1, 2007, 
FEMA stated, ``Our investigation of formaldehyde and travel 
trailers indicates that ventilating units can significantly 
reduce levels of formaldehyde emissions.'' However, FEMA failed 
to mention how it achieved these results. It tested these 
trailers with all the windows open, the static vents open, and 
the ventilation fan on for 3 straight weeks. The testers never 
closed the trailers off in any way.
    Mr. Stewart, would it have been reasonable for you to leave 
your windows open 24 hours a day?
    Mr. Stewart. I did.
    Mr. Cummings. And what happened?
    Mr. Stewart. It came back at 0.22 parts per million, over 
twice the safe level. And I can add that during that time it 
was the middle of the winter. We had an air purifier in 
operation when we did all our test, all of the windows open, 
and the exhaust fan on, and it was almost 4 months after we got 
our camper, so we had been airing the camper out for 4 months 
and left it open while we did the test and it still came back 
over twice the safe limit.
    Mr. Cummings. Mrs. Huckabee, does testing the trailers 
under the conditions provide you with any comfort? In other 
words, the testing that I just said?
    Mrs. Huckabee. No.
    Mr. Cummings. And, Mr. Harris, when you leave your trailer 
to go to work, to take your family somewhere, do you have to 
lock it up and close the windows?
    Mr. Harris. You have to lock up your place, because it is 
where your valuables are. I might add this to that: when they 
tell you to air out the trailer, I don't really know what air 
out means now. What does air out really mean, because when you 
come back, believe me, it is terrible.
    Mr. Cummings. So, in other words, if you leave the windows 
open and come back, what happens? Do you still have a problem?
    Mr. Harris. You still have a problem. If you go in there, 
your eyes are going to burn, your eyes are going to water, and 
you are going to start coughing. You will know. We didn't know 
what it was at first. I know I didn't. I had no idea it was 
formaldehyde.
    Mr. Cummings. Ms. DeVany, you wanted to say something?
    Ms. DeVany. I do. I would like the members of this 
committee to understand that, even though they keep hearing 
formaldehyde levels will go away, they will get better and 
better, in fact, Ball State University did a study of 
formaldehyde and formaldehyde-emitting particle board and fiber 
board and plywood, and those studies showed that after 4 to 5 
years the levels were still only down to half as much; 4 to 5 
years. We have to do something before this.
    Mr. Cummings. I see my time is up. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you very much, Mr. Cummings.
    Mr. Davis, I am going to recognize Mr. Souder next, but do 
you want----
    Mr. Davis of Virginia. The question is, whatever the level 
is, FEMA needs to be customer friendly. It seems like they were 
just more interested in covering their legal liability, keeping 
it out of the newspapers, and that is the wrong direction for 
Government. I think all of us on both sides of this, hearing 
your stories, that is not the way that we want Government to 
happen.
    Chairman Waxman. Mr. Souder.
    Mr. Souder. I thank the chairman. I want to make clear from 
the outset that my District makes trailers. Between 58 percent 
and 67 percent of all RVs and trailers are made in my District. 
Tens of thousands of people's jobs are dependent on facts, not 
just talking. You all have had a terrible experience. FEMA did 
not appear to be responsive. To the degree it was formaldehyde, 
it should be addressed and there should have been a response to 
it. But it is important not just to have a hanging without even 
any scientific facts on the table here. I'm sorry. There were 
120,000 trailers that went to your area. They did not all come 
and were not all manufactured for this. FEMA went to dealers, 
FEMA went to all sorts of different types of things. In my 
travels down to New Orleans in that region you can see 
different types of trailers at different places, different 
types of brands at different places. You can't hang an industry 
based on the lack of one case where they checked it.
    We have some individuals' testimony. We have some other 
individuals. We have 177 formaldehyde complaints out of 
120,000, 177. A sweeping statement saying people are afraid to 
complain doesn't cut it here. There needs to be actual research 
and checking and measurement.
    Furthermore, all sorts of numbers are being thrown out as 
far as what is acceptable. It is 0.4 by HUD, it is 0.1 by EPA. 
By the way, we don't even have an expert on this panel. Dr. 
Needle is a pediatrician. He hasn't done research papers on 
this, he hasn't studied this issue. He has the cases that are 
in front of him. He is doing the best that he can deal with as 
a doctor. Another person is a consultant here. They aren't an 
expert in the field. We have nobody here who actually knows 
anything much about formaldehyde or the industry. What we have 
are terrible personal stories that should have been treated. 
The Government should have responded.
    Now, there are some fundamental questions here. Was there a 
difference in the normal process? Are these all made by the 
same type of company? Is there some kind of structural thing? 
How does it interact in your region? Why haven't we had these 
problems in your region before with these type of things? 
Clearly, campers are not intended to be lived in. Why did FEMA 
let you live in a trailer that are basically for people to go 
camping in for short periods of time and who are outdoors 
heavily in that period? They are not meant to be lived-in 
units, and yet some of them are still down there being lived in 
in a way that these things were never built to do.
    Furthermore, we have 10,000 of these things sitting in 
Arkansas. In Arkansas, we had better make sure that if any of 
those are resold that are rebuilt, that they have a great, big 
made-for-FEMA, because the standard for the ones who were 
making it was a different standard even than normal HUD 
standards were to get them done, because you were in a panic 
down there.
    We had every trailer that is made in Indiana that is 
shipped out basically is pre-sold, so when they went and bought 
these off dealers' lots they had to back-fill that. The 
standards that they would have there would be different than 
the standards that would be sold generally. Generally not 
formaldehyde. That is a 0.4.
    Furthermore, the workers in the plant have a 0.75, and 
these are checked and monitored on a regular basis. So one of 
the other questions is, was there something that happened in 
the speed of these that went out, combined with the climate, 
that somehow changed even what normally would be in that 
market? There is no evidence at all that the individuals who 
made these things were impacted any differently. There is no 
evidence that coming out of the plants they were any different. 
To the degree we do find that there are a number of these at 75 
times, if that is the case, other than just the one example, if 
that is the case how did that happen? Because other inspections 
were occurring as it went on. What is the interaction? What is 
the time.
    But clearly the current FEMA trailers that are in Arkansas 
should not go on market until this is further researched.
    Second, we need to know whether this is universal. We also 
need to know whether people who are getting sick, as Dr. Needle 
did say, the symptoms for formaldehyde are similar to many 
other symptoms that come through in this particular climate, 
including water contamination, including stress, combined with 
the extra pollution that is in the city. To just uniformly, 
without research, make the assertions that I have been hearing 
today about an industry is irresponsibility.
    We need to respond and help individuals when they are sick. 
The insensitivity out of the Government to responding, whatever 
it was, you should have been moved out of that housing. That is 
not the question. But to slander and make assertions in this 
committee without facts is really unfortunate.
    I yield back.
    Chairman Waxman. Did you have any of those questions you 
wanted responded to, Mr. Souder?
    Mr. Stewart. I could respond to a number of the statements 
that he made.
    Sir, first let me say for the record that I live in a 
camper. I bought my own camper. I am not here today to degrade 
the camper industry. I live in one. OK? It is the way the 
campers were made and manufactured.
    Mr. Souder. There is no evidence of that, sir.
    Mr. Stewart. OK. The----
    Mr. Souder. There is no evidence. That is what we need to 
look at because what you are saying may, in fact, be true, 
that, particularly with certain types of reactions in 
individuals there was not enough sensitivity or warning said to 
do that, but you cannot say on the record, based even on one 
case, that it is the way they were made. You say I think it is 
the way they were made in my case.
    Mr. Stewart. OK. Anybody who has been in a FEMA camper, 
anybody who has been in numerous FEMA campers--and I have been 
in a number of FEMA campers, not just one, but many--the walls 
are literally falling down in many of these campers. These 
campers were not manufactured like a regular camper. The 
industry threw these together and delivered them for a reason. 
So as they sit today the FEMA campers were put together in a 
shoddy fashion. They are not nearly as sturdy as a regular 
camper, and whether the materials in them are substandard or 
not, I know that the one I took apart, because I took a lot of 
the material out of mine, the material was not up to grade. 
There were a lot of things with that.
    And, just to answer your question on the industry workers, 
if you watched the report by Dan Rather who interviewed the 
industry workers who put those campers together, many of them 
are, indeed, sick.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
want to thank you for calling this hearing.
    You know, every time I am involved in a discussion or a 
hearing relative to FEMA, there are new revelations which seem 
to take this Agency to a new level of low.
    It is hard for me to imagine that any agency, that any 
business, any unit of Government could operate with such a high 
level of incompetence, such a low level of sensitivity, and 
obviously a level of not being prepared.
    Ms. DeVany, could I ask if you would turn to exhibit Q in 
your briefing materials? There is an internal FEMA e-mail from 
July 26, 2006. It references what FEMA staff apparently call 
the sniff test. As you can see, the subject line on this e-mail 
is ``Formaldehyde Issues.'' It is a one-sentence e-mail that 
reads, ``Can you send someone to check this out, to simply do a 
sniff test and determine the needs for a different unit?''
    There are other FEMA documents that refer to the sniff 
test. This is apparently the process by which FEMA determines 
if someone can exchange a trailer based upon high formaldehyde 
levels. A FEMA employee or contractor visits the trailer and 
sees if he can sniff the smell of formaldehyde. If so, FEMA may 
swap out the trailer.
    Ms. DeVany, my question is, can you tell us if this 
approach makes sense? Can a person, from you experiences, from 
your training, from your level of expertise, can a person 
reliably determine if a trailer is safe by simply sniffing for 
formaldehyde?
    Ms. DeVany. Yes, I can address that question. First of all, 
I would like you to understand that you can't even smell 
formaldehyde until the concentration is already, on average, 
0.83 percent, so that means 50 percent of people even at 0.83 
percent still can't smell it. Only about half the population 
can, because that is the average. So the formaldehyde level 
typically is close to one part per million before we even are 
aware of definitively, Oh, that is formaldehyde. So we can't 
depend on our noses, because once we can smell formaldehyde we 
have been way over-exposed. People in the workplace know this, 
too.
    Second of all, the reference to a sniff test most likely is 
in reference to a direct driven instrument, a photo-ionization 
reading instrument that you turn on outside, calibrate it in 
fresh air, and then take it inside and it reads almost 
instantaneously a formaldehyde level. That is one possibility. 
Those are called sniffers. That is a possibility of an 
instrument they might be referring to if, in good faith, they 
were using instrumentation.
    They also could have used what is called a detector tube, 
where they pull a known quantity of air through a chemically 
treated tube that changes colors, and they know from the 
concentration of change in color on the tube and the volume of 
air what the concentration of formaldehyde would be in the air. 
Those are called direct reading detector tubes, and they take 
just 5 minutes to use. They might have done that, too, if we 
want to interpret this in good faith and think they actually 
used instrumentation and did not depend on their noses. I would 
not like to think anybody really did depend on their nose.
    Mr. Davis of Illinois. Well, in developing protocols or 
methods of operation, would one be accurate to assume that FEMA 
had access to this type of information, if there were people 
working for FEMA and they knew how to get the information that 
could tell them how to respond to certain situations?
    Ms. DeVany. This is certainly not common knowledge for a 
lay person to know about. FEMA would have to have specialists--
industrial hygienists, environmental health engineers like 
myself--who understand this kind of instrumentation and how to 
do proper sampling for various airborne contaminants. Whether 
FEMA does or not, I have no knowledge.
    Mr. Davis of Illinois. But they would have had access to 
resources that could have allowed them to have this kind of 
expertise available?
    Ms. DeVany. Well, especially if they were working in 
association with the EPA experts who did the air sampling 
later.
    Mr. Davis of Illinois. Thank you very much.
    I see that my time is expired. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I don't have a 
question, but one is just a word of thanks to you, Mr. Chairman 
and ranking member and staff, for holding this very important 
oversight hearing, and to the witnesses to thank them for their 
testimony, and especially to the three witnesses whose families 
have been impacted. I appreciate my colleagues' opinion that we 
need to base our statements and efforts and actions on fact, 
but your testimonies are fact. The experiences that you have 
had in these trailers is a factual experience, and each of you 
presented your experiences very well, and that is going to be 
very helpful to this committee as we go forward and try to get 
to the bottom of this issue that should have been gotten to the 
bottom of a long time ago.
    The unexcusable response of FEMA in how it responded to 
your and other inquiries asking for assistance and your own 
individual efforts to get to the bottom of it, you shouldn't 
have had to have done that. So we appreciate your efforts and, 
as a parent, Mrs. Huckabee, sometimes as a parent you just know 
what the cause of a problem is, even if you can't prove it, but 
you know.
    Each of you should be commended for being willing to come 
forward and, through your personal efforts, not just to have a 
result for yourselves but for the greater good and looking out 
for others.
    I am not sure with all of you, but I know, Mr. Stewart, you 
referenced your past service in uniform, both with law 
enforcement, as well as in the military, and we are grateful 
for that service, and yet again serving your fellow citizens 
here today, as well as with your fellow witnesses.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Platts.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Thank the witnesses.
    I am sorry that our skeptical colleague is no longer able 
to be with us, Mr. Souder, because I thought he raised some 
interesting questions.
    We certainly want to get all the evidence, but I haven't 
seen this level of Government incompetence outside of the 
Nation of China. You know, when I first heard about this 
contaminated living conditions, consumer products, things like 
that, uncaring government, that is what first sprang to my 
mind, and they executed an official in China for not having 
done their job.
    You know, no one is asking for that here, but how about a 
simple application of the Golden Rule? My wife is from the Gulf 
Coast. She survived Hurricane Camille. President Nixon's 
administration supplied a trailer. They lived in it for a year. 
It was a great experience. Everything worked.
    All we are asking for is for Government to work just as 
well 40 years later. So perhaps our Republican colleagues will 
want to join us in having Government work as well as it did in 
the Nixon administration. That is not too high a goal. 
[Laughter.]
    But let's apply the Golden Rule. If you put exhibit B up on 
the monitor, the one home that FEMA apparently did test with 
living occupants, the Sistrunks, on April 6, 2006, these were 
the levels in their manufactured housing unit over an 8-hour 
period. Right side of the master bed, 1.2 parts per million.
    We will disregard the inside-the-cabinet reading because, 
granted, that is probably going to be too high. Nobody lives 
inside a cabinet. But this other reading I found particularly 
touching. ``Bunk bed in small bedroom, 1.2 parts per million.'' 
Who sleeps in bunk beds in small bedrooms? Kids. Our precious 
children.
    You know, I would feel a lot better about the skeptics if 
they could identify for me one high Federal FEMA official or 
one high industry executive who put their kid in a small bunk 
bed under these conditions. Then I would feel like the Golden 
Rule had been applied and we were doing unto others as they 
were doing unto us. But I haven't been able to identify that 
FEMA official. Maybe he or she is about to testify in a later 
panel. I haven't been able to identify that industry executive 
that is adhering to that simple, common sense, back-home 
standard.
    That is what really worries me about this. The people of 
the Gulf Coast are fine people. They have been through 
incredible hardship. For them to face not only Hurricanes 
Katrina and Rita but Hurricane FEMA--which may stand for Failed 
Every Major Assignment--I am not talking about the rank and 
file folks, because they seem to have showed amazing common 
sense. When the field people report problems and their lawyers 
higher up say, ``Don't test at this time because then you have 
to deal with the results''--and this is from an e-mail that was 
sent by a gentleman on June 15, 2006--``Do not initiate any 
testing until we give the OK.'' The reasoning for that was, 
``Once you get the results, and should they indicate some 
problem, the clock is running on our duty to respond to them.''
    Well, the clock is running any time there is a small child 
in a bunk bed in any one of these units breathing this terrible 
stuff.
    Mr. Chairman, I am proud of you for holding this hearing. 
This is long overdue. We have to clean up FEMA. We have to help 
the people in the Gulf Coast and all the areas of danger in our 
country. And I am tired of some of our colleagues making 
excuses for Government and these industry folks until they show 
us that the Golden Rule has been applied.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Cooper.
    Ms. Foxx. Mr. Chairman, thank you. In 10 seconds of my time 
as a Republican----
    Chairman Waxman. Let me just say nobody is apologizing 
here. I think we have been very clear, Government didn't 
respond here and is responsible. When you say Republicans, I 
hope you are not talking about the ranking member and others 
who have been very critical of FEMA here.
    If we really want to go back to low standards, we go back 
to the Carter administration. There is a lot of blame to go by, 
but we try to keep this hearing on the up and up, and I 
appreciate the gentleman's comment.
    Ms. Foxx. Mr. Chairman, thank you.
    I also am not apologizing for anyone in the Federal 
Government, particularly not in FEMA. I am sorry that my 
colleague from Indiana left, because I will tell you all 
something that you don't know, you have no way of knowing, but 
the night before we had the vote to appropriate $52 billion for 
hurricane relief for Katrina we raised a lot of the issues--he 
did, I did, and a couple of other Members--about the use of 
trailers, because we saw in the plan the number of trailers 
that were going to be purchased. We questioned how quickly 
those trailers would be available, where they would be used, 
how would the community absorb them. A lot of questions came up 
about this, and we were not given very satisfactory answers, so 
you will not find me to be an apologist for the administration 
or FEMA in this area.
    I voted against the Katrina funding of $52 billion at one 
time because I said there was no accountability, there was no 
plan, we were doing this too quickly, and I think that is a 
major problem that we have in our Government.
    I do, though, appreciate my colleagues also mentioning that 
we need to have a balanced hearing.
    I am very sympathetic with all of you all for having 
problems. I think, Mr. Stewart, very few of us have experienced 
what you have described--coming home and having everything 
gone. That has to be so devastating. But what we need to do is 
we need to use your feedback to us as a way to fix the system. 
We are not doing enough of that in this committee. That 
troubles me.
    My constituents come to me and tell me about problems and I 
go out there and try to solve those problems. I look for how to 
make systemic change. That is why I got on this committee, 
because I want to see systemic change. I don't care whether it 
is a Democratic administration or Republican administration. 
Government employees are there to serve you. That is my 
attitude. That is the attitude of my staff. And it should be 
the attitude of every person who works for any level of 
government.
    I want to mention that a couple of weeks ago we had a bill 
here, H.R. 404, and I raised the issue about that bill sounded 
great but it accomplishes nothing. Representative Cuellar came 
to me and said, let's try to make this better, and we have been 
working on that bill to set standards for customer approval, 
customer appreciation.
    What is lacking in that bill is what Representative Cooper 
talked about--establishing responsibility and accountability 
and consequences. It is unconscionable to me that you would 
call a FEMA employee and not get the kind of response you would 
get. If you are telling them you have problems, they should 
solve that problem. That is their goal. You are not a problem 
to them; you are the reason they are there.
    But it just points out so many parts of our Government are 
dysfunctional. We have too large a Federal Government. We 
cannot do these things at the Federal level. FEMA should be a 
coordinating agency, in my opinion, and most of the work should 
be done at the State and local levels. We are taking the power 
away from the people who can do the work and putting it in the 
hands of people who simply are not on the ground and don't know 
how to do it.
    As far as the quality of the trailers or the campers is 
concerned, I think we definitely should look into that and make 
sure we don't ever have these kinds of substandard things done, 
if they were. But I do agree with Congressman Souder--we need 
to know all the facts. We need to know the proportion and we 
need to find out why, if there was a really bad unit made, what 
caused that to happen and why that won't happen again, and 
getting to the systems is what we need to be doing so that the 
people are served better.
    I hope this committee, Mr. Chairman, will start taking a 
broader view, instead of just the sensational things. Again, 
what you experienced is very personal and very tragic, but it 
is meant to sensationalize. That doesn't accomplish a lot 
except to raise our awareness, and it only accomplishes 
something if we followup on it in a systematic way. That is 
what I would like to see happen.
    I thank you for at least giving constituents this 
opportunity, because I listen to my constituents and then I 
work on what they talk to me about.
    Thank you.
    Chairman Waxman. Thank you.
    I just want to point out to the gentlelady that I knew from 
my own experience what a good job FEMA could do. When we had an 
earthquake in California, FEMA was right there. They helped. 
People were grateful. We recognize that. We don't approve the 
FEMA operation, but we have to identify problems, not just 
accept the fact that they can't be resolved.
    Mr. Harris. Mr. Chairman.
    Chairman Waxman. Yes, Mr. Harris?
    Mr. Harris. May I reply to Ms. Foxx?
    Chairman Waxman. That is up to her.
    Mr. Harris. I would share this with the chairman, as well. 
I must say this, when you are in a dilemma and you are needing 
answers, when you are dealing with FEMA--I am not talking about 
conjecture or a parable or a story, I am telling you what 
happened. These are not imaginary things, and when you deal 
with FEMA after you lost everything you have, they do not 
respond, or they have not responded in a way that you would 
think would be equitable when you are in a situation.
    I can identify with Mr. Stewart and Mrs. Huckabee. When you 
talk to them, there is no sense that there is something that is 
going to be answered or handled.
    So as far as sensationalizing, I don't know about that. As 
far as it being Republican or Democrat, when I call FEMA I 
don't tell them what party I am. I am just trying to get some 
help. And what I think in my lowly position is that they have 
not been able to remedy us. I don't want to speak for them, but 
when I call, I feel just as confused after I called as what I 
did, because I don't know what to do.
    Ms. Foxx. Mr. Chairman, could I make one quick comment?
    Chairman Waxman. Yes, one quick one.
    Ms. Foxx. What my position is, you should be able to write 
down the name of that person that you are not getting an answer 
from and have some place you can go to and get a response and 
get feedback, and they know that if they don't treat you right 
there will be consequences. That is the problem with our system 
now, there are no consequences for bad performance on the part 
of Federal employees. There are many wonderful Federal 
employees who work hard to do their job, but when you are not 
being treated right, you should have some mechanism for 
alerting people to that.
    Chairman Waxman. The gentlelady's time has expired.
    I want to recognize my colleague from California, but one 
of the consequences, if they have to come here before the 
Congress you may call it sensationalizing, but we are going to 
make people answer through oversight for the lack of due 
diligence and responsible actions.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman, for your ability over 
the years to bring truth and speak truth to power.
    Sensationalizing? Let me sensationalize it even more. I was 
a member of the California State Senate. I moved into a new 
office. They came in and gave me new carpeting. They put it 
down with glue. They painted my walls and they brought in 
naugahyde furniture.
    I became violently ill. I went to doctors in Sacramento, in 
Los Angeles, wherever I could. I spent thousands of dollars of 
my own money, not government money, my own money to find why my 
eyes were tearing and red, my nose was running, my face was 
swollen, a terrible odor was coming up, my stomach cramped. 
This happened over a period of months, and I had all kinds of 
skin tests.
    I find out I was allergic to something called formaldehyde. 
Are you aware that glue that sticks carpet and tile has 
formaldehyde in it? So the construction of probably your 
trailer had formaldehyde in the glue that held component parts 
together.
    It wasn't until a doctor sent a team in to test the air. 
They wrote me a six-page letter, single spaced. I had to take 
it to the Rules Committee. The Rules Committee said I could 
have my office redone because it takes 2\1/2\ years for 
formaldehyde to gas out; 2\1/2\ years. And as long as that 
substance is there in the building component parts, you are 
breathing it in. It will definitely affect your entire system, 
because it goes up into your T-zone, it affects your brain, it 
affects your concentration, it starts to destroy the meninges 
of the brain. That is that thin skin. It could eventually kill 
you.
    So if I haven't sensationalized it enough, I will bring the 
letter and submit it to the Chair as evidence.
    I have not seen a department so incompetent as Federal 
Emergency Management Agency has been in the last 6 years. I 
watched, like the world did, the response to Katrina. It was 
shameful.
    So I want to apologize to you.
    And for my colleagues who are saying we don't have a 
statistical base, we only need one. We don't need thousands. 
And when I read an e-mail like I am going to share with you 
right now--and this is something that went to FEMA and this is 
the response from one employee. ``I received guidance from our 
IA policy group at HQ.'' I imagine that is headquarters. 
``According to HQ, there are no health concerns associated with 
the formaldehyde inside our FEMA MH/TT.'' Those are trailers. 
``We were given instructions to turn on the heater for an hour, 
then turn off the air and open all the windows and turn on the 
air for 48 hours.'' This will eliminate the smell. It will not 
eliminate the cause that is sickening the people who live 
there, because the formaldehyde is in the materials that hold 
the unit together. ``If you have any questions or concerns, 
feel free to contact me.''
    Now, that is denying that these trailers are emitting a 
substance that really takes 2\1/2\ years to gas out. This is a 
scientific fact. So you coming, speaking truth to power--and we 
are the power--I want to commend you for that. You cannot deny 
what is true. FEMA has failed us.
    I argued long and loud not to put FEMA under Homeland 
Security. You have too many levels of bureaucracy. So Brownie, 
you have done a good job. Just to let you know that it is 
cronyism and incompetence that has put us in this situation. I 
apologize to all of you for the failure of our Government.
    I yield back my time, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Jordan.
    Mr. Jordan. I thank the chairman. I see we have another 
panel, and I am fine at this time. I would be happy to yield to 
Representative Jindal.
    Mr. Jindal. I thank my colleague for yielding. I also want 
to thank the chairman and ranking member for holding this 
hearing.
    First of all, I want to echo my colleagues' comments, 
especially to our two residents that had to live in these 
trailers. You deserved to be treated better. Nobody can excuse 
what you had to endure.
    I have often said it is almost like there were three 
disasters; there were the storms; in Louisiana there was a 
breaking of the levees; and then, third, there has been the 
bureaucratic response.
    I wish I could tell my colleagues I believe these to be 
isolated cases. We know personally these aren't isolated cases. 
We have gotten dozens of calls in our offices. We share the 
same frustration as the witnesses we are hearing from today 
when we called to seek better treatment, whether it was 
replacement trailers, alternative housing arrangements. We 
literally had a constituent who had one lung, was living in a 
trailer, decided to move back in their moldy apartment thinking 
that was safer for them than the formaldehyde in their trailer.
    There is absolutely no excuse for how these witnesses and 
the others that can't be here have been treated. Let's be clear 
about that. No excuse.
    I have a couple of questions, but I want the witnesses, 
especially the two gentlemen that have had to live and endure 
through this, to know there is no excuse for the way you have 
been treated. You said it exactly right, sir. You are an 
American citizen. You are a taxpayer. It wasn't your fault 
these storms took away everything you own. There was no excuse 
for you to have to be a victim of your own Government's 
incompetence.
    Mr. Stewart, again, please take your time. I have just 
really two questions, one for you and then one for Dr. Needle, 
as well. Mr. Stewart, you indicated that you made several calls 
to FEMA to complain about the conditions in your trailer. You 
report that the results from the American Chemical Center's kit 
showed elevated levels of formaldehyde. You complained that 
FEMA still would do nothing to address this issue, refused to 
help.
    Later we are going to hear testimony today from FEMA. We 
are going to hear testimony from FEMA that they immediately 
responded upon receiving complaints. I know for a fact that is 
not true. I know we didn't have success in getting responses 
for many of our constituents, even after they brought medical 
documentation, even after they were able to prove they or their 
children were suffering due to these elevated levels of 
formaldehyde, and we did get a response. We did get a response. 
So often the response was something as ridiculous as, well, 
open the windows, run the A/C, as if that was going to solve 
the problems in these trailers, especially when you saw 
formaldehyde levels higher than what would be acceptable for 
workers if this was OSHA, higher than what was acceptable for 
FEMA's own inspectors. How in the world could they expect you 
and your family, you and your wife, how can they expect other 
families, how can they expect children to simply just open the 
windows and not worry about it?
    It is a leading question, but I still want to give you a 
chance to respond according to the best of your recollection. I 
want you to have a chance, because we are going to hear later 
today from FEMA that they responded quickly to every complaint. 
We know that is not true.
    I want, to the best of your recollection, after you 
complained to FEMA how long did it take for you to get a 
response? Did you ever actually even get an adequate response? 
We have heard from your testimony what happened, but I 
certainly don't think it was proper you had to use your own 
reinsurance money instead of rebuilding your home to instead 
have to provide yourself with temporary safe housing. But after 
you complained, how long did it take? And did you ever get an 
adequate response?
    Mr. Stewart. First of all, it is not really a leading 
question, but no, I did not ever receive an adequate response. 
If I had, I wouldn't have had to buy my own camper. I think 
that can speak for itself.
    I can also say that if you want proof positive that FEMA 
failed to react, why is it that a citizen has to tell FEMA, 
Listen, first of all there is an OSHA study out there that says 
these campers are contaminated, No. 1? No. 2, why does a 
citizen have to go out and seek out assistance from a chemical 
sensor company in the United States to send me a free sensor so 
that I can test my own camper?
    I tested my camper because FEMA would not, and I took it 
upon myself to do the research and the work that FEMA should 
have done in the first place, so for FEMA to ever try and say 
they reacted quickly, you know, when I complained, I don't know 
how anybody can possibly say that, because there is nobody in 
this room that would go to the extent that I went to without 
having to be forced to do so. If FEMA had said, we are on the 
way out with someone to test your camper, I would have been 
more than glad to let them in and test it and we would have 
been on our way.
    Even after that, I gave FEMA chance after chance. I 
actually told FEMA before I ever went through this process, I 
am going to test my camper and I am going to tell you what the 
results are, which I did. I called them and said, Here are the 
results. They still refused to act. At that point I even told 
them, Listen, this camper is toxic. One, I want a new camper; 
and, two, I want to know how you are going to go about testing 
other campers in the community because I can't be the only one. 
There are tens of thousands of my friends living out there in 
these campers, and I want to make sure they are safe. And if 
you don't do that, I am going to do everything I can to 
publicize this issue, because the people have to know what is 
going on, so either you fix it or I am going to do what I can 
to fix it.
    I tried as hard as I could to get FEMA to react, and they 
failed to. They just knowingly failed to respond.
    Mr. Jindal. Mr. Stewart, if your time allows, I hope you 
will wait and listen to the testimony of the second panel, 
because when we hear, as a congressional committee, when FEMA 
comes and tells us they did respond quickly to every case, if 
your time allows I would like you to be here present to hear 
that.
    I would like to thank both the witnesses. You represent so 
many other people that can't be here today from the Gulf Coast 
that should not have had to endure this.
    There is a woman in Baton Rouge who has now died. They 
haven't yet proven that her cancer was related to formaldehyde, 
but many families have complained they had asthma, they had 
respiratory problems, they had prolonged exposure to a 
carcinogen, and instead of getting prompt attention to their 
complaints they were met with stonewalls, they were met with 
frustration. They were denied any help, and many times they 
were told their health claims simply weren't real, even though 
they saw it was happening to them and to their children.
    Mr. Chairman, I think I have exhausted my time. I have a 
second question. I will save it if we have another round of 
questions.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Jindal.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I also would like to join in this joint apology or 
collective apology to the three of you. This is unconscionable, 
and this is one of the reasons that I think I and many others 
of the freshman class ran for office--to try to deal with the 
type of inefficiencies and abuses of the Government that we 
have seen.
    I would also like to respond to something that Mr. Souder 
said. I understand his sensitivity, but I read this whole 
hearing a little bit differently. I am willing to stipulate 
that the industry has a pretty good record of providing safe 
products, and I think it is simply the fact that this appears 
to be such an aberration that it would call into question why 
FEMA didn't look at, even if it were only 58 cases--we know it 
is more than that--and say, wait a minute, there is something 
very wrong here, because these manufactured homes should not be 
this way.
    I think it is specifically because this is so unusual that 
FEMA should have had red flags all over the place and taken 
action.
    But I want to get to the issue with you as to maybe how 
widespread these incidents were. I know when the committee 
announced that it was holding hearings, we heard from a number 
of organizations that have been dealing with this issue. One of 
them is called Alabama Arise. A man named Zach Carter, who was 
an organizer there, submitted some written testimony to the 
committee because he couldn't appear.
    I would like to ask unanimous consent to make that part of 
the record, Mr. Chairman.
    Chairman Waxman. Without objection.
    [The prepared statement of Mr. Carter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yarmuth. He stated in his written testimony, ``I have 
met and video interviewed dozens of Katrina victims in South 
Mobile County, and I can say that almost each one has 
complained to me about health problems that they have developed 
since moving into their FEMA camper, from nosebleeds and 
bronchitis to high blood pressure.''
    David Underhill of Mobile-based Sierra Club has informed us 
that almost all of the dozen FEMA campers that organization 
tested had had problems with formaldehyde. We have had 
testimony from many, many people. So I am interested in 
knowing, particularly with the three of you--and I am not 
familiar with the setting in which you lived, but I assume you 
lived in an area where there were many people in similar 
circumstances living in FEMA-supplied campers. Did you have 
conversations with these people to share their experiences? 
Would you elaborate on those for us?
    Mr. Stewart. Sir, immediately after my test results came 
out and were publicized, I was contacted by the Sierra Club and 
took part in assisting them in testing campers in Bay Village, 
which is a FEMA trailer park in Bay St. Louis. I will tell you 
two things that were shocking. No. 1 was the number of trailers 
that tested with excessively high formaldehyde. Of all the 
campers that were tested, 88 percent had formaldehyde levels 
that were deemed unhealthy.
    The second and almost the scary thing is that when you 
walked in and asked these people, this is who we are. This is 
who I am. I tested my camper. My camper was high. Can we hang a 
test kit in your camper to make sure that what you are living 
in is safe? Almost unanimously the first response was, as long 
as it is OK with FEMA, because I don't want to lose this house, 
because if I lose it I am going to be living back on my slab.
    The fear of FEMA was so strong that people would rather 
live in an unhealthy environment than to be back on the street, 
because they feared FEMA would come in and snatch that house 
right out from underneath of them.
    When the first media event happened and I had publicized 
what happened to me, the reporter who did the report, he was 
living in a FEMA camper, too. We actually joked back and forth, 
because we had already heard of FEMA coming in heavy handed and 
taking campers away from people, and we actually contemplated 
what happens if this thing goes out. You may lose your house, 
too, because he was living in a FEMA camper.
    There is a deep-rooted fear of people living in these 
things that someone is going to come in and snatch up their 
house.
    Mr. Yarmuth. Well, I just have a few seconds left, so I 
would like Mrs. Huckabee and Mr. Harris to comment also about 
their experiences, if you had conversations with others.
    Mrs. Huckabee. I, too, at school meetings and at play dates 
and things like that. Conversation would come up about somebody 
not being there because their child was sick again and again 
and again. It was the same type stuff--asthma symptoms. I 
cannot count the number of people I know that have had children 
born since the storm and they all have asthma. It used to be 
something where every once in a while you would hear of 
somebody, but I think almost literally every friend that I have 
that has had a child born since the storm, they have turned 
asthmatic, and they are all in the FEMA trailers.
    Mr. Harris. I would like to just quickly echo and say yes. 
As a minister, what we try to do is help people during the 
times that they are feeling very vulnerable and the times that 
they are feeling inadequate, and I want to tell you that there 
are trailer parks and other areas where people are suffering. I 
must say again to you, please hear me, it is not an imagined 
thing what Mr. Stewart is saying. There is a fear. There is an 
element that they make you feel like you ought to be glad you 
have this. Congressman, I can't over-emphasize that. So when we 
are saying this to you, please hear me.
    Mr. Yarmuth. Thank you. We hear you very loud.
    Mr. Harris. Bless you.
    Mr. Yarmuth. Thank you.
    Chairman Waxman. Thank you, Mr. Yarmuth.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by first thanking all the witnesses. I really 
appreciate your taking time to come and to share with us. Let 
me say right from the outset, you know, I have enough proof. 
The fact that you are here and you have indicated in terms of 
your views and you talk about the children and your sick 
children and the problems that you have encountered, that is 
enough proof for me.
    Of course, I come from New York and I know about 9/11. I 
remember even with EPA, when they indicated the fact that there 
is no problem, and then now all of the sudden people are having 
respiratory problems, and now people are saying I think maybe 
something did occur. Well, I think that your coming and sharing 
with us is something that we need to get on top of right away 
because I must say here we go again.
    To think about the fact that the lawyers basically said no 
testing until you contact us, I mean, that to me sort of smells 
like a cover-up, and I think that we cannot afford to have a 
cover-up.
    One of my colleagues on the committee here went on to say 
no proof, but people afraid to complain, that is normal. I 
mean, if you are dealing with a big Government agency and they 
are saying that we are going to give you this, even though it 
is not right, you still don't want to complain about it. A lot 
of people fall into that category, and a lot of people will 
suffer before they will actually complain.
    But the point of the matter is that I am concerned because 
you said that FEMA was treating them like a charity case. Well, 
that to me is very troubling, because when you have a family 
member that is suffering, you are suffering, and a lot of your 
friends are suffering, and you are trying to do something about 
it.
    I think Reverend Harris mentioned we are helpless but we 
are not hopeless, but at a point some people begin to become 
hopeless, and they just feel that nothing can be done, nobody 
cares about the situation, and I think that your coming here 
and sharing with us, indicating the fact how people's eyes are 
burning and how they are tearing, and for us to hear in an open 
way that FEMA's priorities seem to have been upside-down, they 
were more concerned about protecting themselves, protecting 
their image, rather than protecting the people. That is the 
thing that I think is coming across very loud and clear to me.
    I do have one question I probably want to ask you, Dr. 
Needle. Will you please turn to exhibit K, this e-mail exchange 
between FEMA and the Gulf Stream Coach discussing the trailer's 
occupant. If you turn to the bottom of page 7 you will see an 
e-mail that says, employees after interviewing a trailer 
occupant, it reads, ``He has been experiencing numerous 
respiratory problems. Upon advice from his doctor--'' that is 
the occupant talking, occupant of the trailer--``is requesting 
the manufacturer's safety data sheets in regards to types of 
solvents, glues, or adhesives used in manufacturing the 
trailer. The applicant states that the trailer stinks like 
formaldehyde.''
    Now, if you turn to page 3, in the middle of the page a 
FEMA lawyer responds and says, ``The program should not be 
dealing with applicants on the formaldehyde issue without first 
coordinating with the lawyers of FEMA and the Department of 
Justice.''
    And FEMA's field employee responds in the middle of the 
page. He says, ``OK. If I interpret this correctly, we are at 
all stop on providing material safety data sheets to 
requesters.''
    Doesn't that seem to be a cover-up?
    Dr. Needle. I don't know if I can speak directly to that, 
but----
    Mr. Towns. Let me put it this way, Doctor. In the case of a 
doctor has advised his patient to try to learn what chemicals 
might be causing his respiratory problem, do you think that is 
a reasonable request? You can answer that one.
    Dr. Needle. Absolutely. I agree that it would be. Yes.
    Mr. Towns. Yet FEMA's lawyers see it as their job to 
prevent information from being conveyed to the trailer 
occupants. Does that seem to be right to you?
    Dr. Needle. I think, as the documentation is coming out, 
both from what we know and from also what the committee has 
discovered and is relating to us, I think it is becoming clear 
that FEMA has known about this problem for much longer than at 
least any of us suspected. I mean, I can tell you, for 
instance, that we on the ground in Mississippi and Louisiana 
were raising attention to this issue well over a year ago, and 
at that point FEMA's spokesperson said--I am paraphrasing--
basically everything was under control and that there were no 
health concerns. And what we are finding today is that even at 
that very time there were individuals within the Agency that 
felt otherwise.
    Mr. Towns. You know, it sounds like a cover-up to me.
    Anyway, my time has expired, Mr. Chairman. Thank you so 
much.
    I do thank all of you for coming, and I really, really 
appreciate your sharing information with us, because I think 
that the message is clear and that we want to do whatever we 
can to try and fix it. Thank you so much.
    Chairman Waxman. Thank you, Mr. Towns.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you all for your testimony. I want to rebut the 
notion that Government is inherently incompetent and can't do 
the job, which is a direction you can head in when you hear the 
kind of testimony that is here. In my view, Government is 
there. It is an instrument to be used for good or bad, and it 
depends on leadership. For this kind of thing to happen, you 
either have to have uncaring leadership or incompetent 
leadership. There are only two choices, because if you have 
leadership that is caring, then the only way something like 
this happens is if it is incompetent. If you have leadership 
that is competent, then the only way this could be allowed to 
happen is if the leadership is uncaring. So we are probably at 
the beginning of a process, Mr. Chairman, that is going to 
continue to bring forth more information and evidence. We can 
get to that issue, and we are going to have testimony later.
    Who is dis-served by this? I want to say I hope you don't 
feel that we are over-indulging in the statements that are 
coming forward here, but I think it reflects the level of anger 
on the part of members of this committee. But who is dis-
served? Obviously, you are dis-served, first and foremost, the 
people that should have been helped. But, in addition, I know 
that there are FEMA employees, rank and file people in the 
field, some of whose expressions of caring have been documented 
here today, who are going to watch this hearing and they are 
going to say, that is not us. We care, and we do the job in a 
competent way. But the leadership that is coming from above has 
either tied our hands or neglected us, and then it spills over 
and affects you. So they are being dis-served.
    The third constituency that is being dis-served is 
everybody in this country, because we keep grasping for 
examples that we can do things right when we face these 
challenges, and we keep seeing instances where we are screwing 
it up. Again, that comes back to leadership.
    I want to ask you, Mrs. Huckabee, to answer this question 
for me. Tell me about those moments in the middle of the night, 
because I am sure they happen, when you thought to yourself, am 
I going crazy? Because what I hear is common sense. There are 
no experts. You are the experts. You are there. You are trying 
to protect your family. You see what has happened. You walk in. 
You see your daughter covered in blood. Yet, every time you try 
to penetrate the system and get them to respond you are the one 
who has to come away wondering whether there is something wrong 
with you, whether your assessment is somehow flawed when you 
see all around you all the evidence that something is going on. 
So tell me about those moments when you were sitting there 
saying, Am I going crazy? Because I bet that happened.
    Mrs. Huckabee. There are so many of them. I mean, my 
daughter woke up in the middle of the night coughing, crying, 
wheezing. My son with the sinus infections over and over again. 
I mean, you begin to think, if FEMA is saying there is nothing 
wrong with these trailers and there has to be something. I even 
had one FEMA representative on the maintenance line saying, are 
you sure that you are not exaggerating your children's 
symptoms? They said that they had people trying to claim they 
had formaldehyde to get bigger and better trailers and things 
like that.
    I mean, I assure you I even went back to the pediatrician's 
office and said, look, can you give me the list of dates that I 
was here, because it seemed like we were there so often. I 
wanted to make sure in my own mind because I thought surely my 
kids have not really been there once a week for the past 18 
months. And I even called the receptionist and said, can you 
give me the list of dates that I have been there and called and 
everything.
    I mean, it is just terrifying because you know that there 
are people who look at you and go, Now why can't you just keep 
your kids healthy? They have these seemingly apart simple, 
little things that should be able to be fixed, and it is all 
five kids over and over and over again. Of course, outside of 
the situation I would look to the mother, too, and be, like, 
what is she doing wrong, because kids don't just stay sick like 
that.
    Mr. Sarbanes. It is incredible that you would be asked if 
you were exaggerating the situation, because when you are 
captive like that, the human response is to try to under-state 
it to yourself, because you don't want to be left thinking that 
you are not doing the right thing for your children. You 
mentioned that when you said you were hoping for a diagnosis of 
an allergy so that you would at least not have to face the 
prospect that you were putting your children in harm's way for 
some other reason.
    This is the position that you are being put in, and I would 
just say to all of the witnesses: don't let anyone else be the 
experts. Don't let anyone else tell you that you are crazy or 
that you don't understand what is happening in your own home 
with your own family. We are here to respond to what you have 
brought forth.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Murphy, you are next, but before I recognize you I want 
to call on Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Let me just pick up for 1 second what Mr. Sarbanes 
observed. I mean, I think in this case, when you take a look at 
what everybody is going to say today--and I rarely defend 
lawyers, but the lawyers, from their perspective, were doing 
their job in protecting the Agency. The people in the field 
were saying we have a problem and sending it up the chain of 
command, and it just kind of all got garbled. Everybody is 
doing their job and nothing happens.
    We can all sit here and agree that the end result was not 
the result that we want. We weren't taking care of the people. 
They forgot the mission, that the duty ultimately isn't to the 
Agency, it is not to the bureaucracy, it is to the people they 
serve. But very rarely do you get rewarded for stepping outside 
that model and stepping over the rules and the regulations or 
getting outside your assigned place to do that. That starts at 
the top.
    We can legislate all we want, but at the end of the day it 
goes with the leadership, and the mission in this case, with 
the crisis there after the hurricane, was to serve the people. 
People were doing their jobs. It didn't work, and it can't 
happen. That is why your stories here today are so important as 
we go through.
    I don't want to point fingers at anybody, except we had a 
system that just didn't work.
    Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    I just want to comment. The lawyers weren't doing their 
job. The lawyers' job should have been to get in there and 
clean it up. That is how you avoid liability. I can't imagine 
how many lawsuits FEMA is now going to face because they tried 
to cover up their failure, their shameful failure to do their 
job.
    Mr. Murphy, it is your turn. I know the witnesses are 
anxious to jump in, as well, but I am going to call you next.
    Mr. Davis of Virginia. Rarely do I defend lawyers and Henry 
goes after them, so this is kind of the opposite. [Laughter.]
    Mr. Murphy. Thank you. Thank you, Mr. Chairman.
    I got to spend a few days in New Orleans a few months ago 
and got to actually spend a little time in one of the trailers 
with a resident who is there who is desperately searching for 
housing. She was renting before she took a trailer. That 
property is no longer available, and she has a story, like 
thousands of others who are doing everything within their power 
to get back to normal living, whether rebuilding their house, 
repurchasing a new house, re-renting again. This problem 
continues, and may continue for a very long time, because it is 
going to take a long time to rebuild not only the housing stock 
of the people who owned houses, but also the thousands of 
people who rented there who have seen the prices go through the 
roof to make some of that rental housing affordable, even if it 
is still there.
    I wanted to touch upon some of the testing that actually 
was done. We have talked a lot about the testing that was not 
done and the fact that FEMA knew. FEMA staff on the ground 
tried several times to get that testing done. The reports 
became so prolific that the Sierra Club stepped in to do 
testing, which resulted in the end in results coming back 
showing that there were dangerous levels above those 
recommended by scientific experts.
    Ms. DeVany, I wanted to point that question to you, because 
I know you were involved in coming up with the protocols that 
the Sierra Club used, and would ask you just to talk a little 
bit about the advice that you gave them and how you believe 
those tests went.
    Ms. DeVany. I did advise the Sierra Club on methods for 
testing, and, just in general, when we design protocols for 
doing air sampling, we want to catch actual real values. I 
think this goes back to what the chairman said, what Mr. Davis 
said, that not only was FEMA trying to cover up, but they 
engaged other Federal agencies in their cover-up. They had the 
EPA design sampling protocols that were, as an industrial 
hygienist, bizarre. Why would we take empty trailers, open them 
and ventilate them 24 hours a day 3 weeks straight and then 
decide that is how we are going to figure out the formaldehyde 
levels?
    Then, in addition to having the EPA design, like I said, 
bizarre protocols, they got two scientists from the ATSDR--the 
Agency for Toxic Substances Registry--and, instead of using 
their own standard of 0.03 parts per million, these scientists 
changed their level that is so high and causes such 
physiological damage that it actually, at that level, the 0.3 
parts per million, causes the bronchi to constrict enough that 
it restricts the airway enough to cause wheezing, asthma, and 
an emergency situation.
    That level is the one they chose. Instead of using the safe 
exposure level, the ATSDR chose a level of concern. And then 
they analyzed EPA's results using that skewed baseline.
    Mr. Murphy. Ms. DeVany--and I see Dr. Needle shaking his 
head, as well--do you have any opinion as to why they chose 
that level, despite a number of sources of literature 
suggesting a much more reasonable standard?
    Ms. DeVany. All I can say, in my professional opinion, is 
that they did this in order to minimize the actual extent of 
the problems in these trailers. I have no other conclusion I 
can draw as a scientist analyzing this. And I have done this 
all my life. I can't believe it was done. I think it was 
complete violation of our professional code of ethics.
    Mr. Murphy. Do you have faith in the results of the Sierra 
Club trials, given your input into how those were conducted?
    Ms. DeVany. There were some problems there, too. I mean, in 
an ideal situation I would have recorded what the ambient 
temperatures were, the range during that time, what the 
humidity levels were, if anyone smoked inside the trailer or 
not. But, by and large, they were realistic samples of what 
people were being exposed to. They didn't artificially try to 
elevate them by putting the samples inside cabinets and closing 
the door. They were pretty realistic, I believe.
    Mr. Murphy. Mr. Stewart, you had some experience in the 
Sierra Club trials, as well. What was your experience with 
those trials?
    Mr. Stewart. In my circumstance, in particular, if the test 
showed anything it was that the test was actually on the low 
end, because my test was done, as she just stated, not under 
perfect conditions. My windows were open, the exhaust fan was 
on, and there was an air purifier, an industrial one, working 
at the time I did the test. So even at the 0.22, that was a low 
ball figure from that standpoint.
    And then I did walk around and put these in other campers, 
and I can say that I don't think there were any in the middle 
of the summer in Mississippi that didn't have the air 
conditioning on and trying to keep the place cool. So from a 
humidity standpoint and a temperature standpoint, I think they 
were relatively common throughout the campers.
    I did just want to say one thing, if I could.
    Mr. Murphy. My time is up.
    Mr. Stewart. Mr. Sarbanes, I just wanted to say one thing. 
I think that an organization can be uncaring and incompetent at 
the same time. I don't think they are mutually exclusive. When 
you call FEMA and, one, they don't do anything and, two, they 
treat you like you are a criminal, I think that is a level of 
incompetence and uncaring together at the same time.
    Chairman Waxman. Thank you, Mr. Murphy. Your time has 
expired.
    I want to recognize now our colleague, Mr. Melancon, who is 
not a member of this committee, but I want to point out that he 
wasn't a member of the Select Committee looking at Hurricane 
Katrina and all the damage that was done, yet he spent more 
time at that Select Committee, put more hours, and tried to do 
what is right for his constituents, and I want to commend him 
for that and ask him now to proceed with his question period.
    Mr. Melancon. Thank you, Mr. Chairman, and also Ranking 
Member Davis, who was chairing at that time the Select 
Committee on Katrina. My only regret is that Chairman Davis' 
leaders put a sunset on the committee at a time when we should 
have been opening up more investigation. But that is in the 
past. Now we are having to start anew.
    The people that are here today, Mr. Chairman and other 
Members, first they were devastated by the storm. I would guess 
all of them got screwed by their insurance companies--excuse 
the rash word. Then the Government failed to show up, or at 
least failed to show up in a friendly manner to say I am here 
to try and help you, not here to give you anything, I am here 
to try to give you a helping hand. That is what is consistently 
not happening.
    The gentlelady a while ago talked about the $52 billion and 
concern for the delivery. Well, that was in September 2005. At 
the end of February 2007, $52 billion still had not been spent 
and delivered to the sites along the Gulf Coast. That $52 
billion that was spent didn't get to the people that are 
sitting at this table. That $52 billion didn't get to the local 
governments to put their water systems back up or whatever. You 
got entire communities in an area that encompasses about the 
same size as Great Britain that were affected by two storms, 
two of the most horrendous storms this world has seen, not to 
speak of that this country has seen.
    We talk about the chain of command and the problem you 
have. I visited with Mr. Paulison about a year ago, I guess it 
was, Mr. Stanley and I, and I was very excited because I felt 
like I got somebody that understands and can maybe get this 
Department straight. I am hoping that the tail didn't start 
wagging the dog, but we will see where we go there.
    One of the things that I have seen or feel that I see is 
departments of Government being run by their attorneys who put 
the fear of a lawsuit in front of the Secretaries and the 
administrators instead of saying, let's figure out how we can 
get things done, and done right for the good of the people, and 
spend the money wisely.
    It is really, really frustrating.
    Mr. Stewart, a while ago you made a comment, and it hit 
straight home. One of the things that we argue about here in 
the Congress is housing for the people that were displaced. 
Everybody wants to get back home. They want to move their 
families back home. Yet, what did we do as a Government? Every 
available property that was for rent--and I can attest to this 
in New Orleans--was occupied by Government contractors or FEMA 
workers, while the people who wanted to get home, FEMA was 
trying to put them in trailers and mobile home parks everywhere 
but where they came from, and it should have been just the 
opposite. Let those workers commute in to the disaster area to 
work every day and put the people back where they needed to be.
    They are still trying to get trailers. We have not only the 
formaldehyde calls, but we had the problem with getting 
trailers. I think up in Hope, AR, there are still about 8,000 
trailers sitting up there. When somebody said, why do you have 
all these trailers, well, we decided we would save those for 
the next disaster.
    Well, there was a tornado through Arkansas 150 miles away, 
and the Member of Congress from that District basically had to 
raise unmitigated hell to get eight trailers over there to help 
put people back on the ground in the community so they could 
start working. There is no logic to it at all.
    The chain of command does not exist. I put people in a room 
from FEMA or ask them to get into a room with local government 
and contractors and whatever, and they will find a reason. 
Usually it is, we can't meet with the contractor. Well, why the 
hell not? Some silly rule? Some attorney?
    You go to the people. I found when we find somebody in FEMA 
that tips over the line and says, Let me try and do this, 
because it will help move you along, they usually are gone 
within a couple of weeks. There is turnover, and, of course, 
the excuse is they get weary working down in that disaster 
area, and so they need to rotate them out. Well, the people are 
weary, and what they need is some people to stay around there 
and understand the situation and be as frustrated as them 
because their Government isn't doing anything for them. Then 
maybe they would be hollering, but they are afraid they are 
going to get fired. That is what their problem is.
    Mr. Chairman, I commend you for opening these hearings back 
up. I commend all the chairmen of all the committees and the 
leadership of this House for opening up what is one of the 
biggest messes that I have witnessed in my entire life.
    We still have a chance to get it right. I will tell the 
story real quick before my time is up. I hear a lot of people 
running around about those people, you know, they are always 
looking for something. I have a good friend that is a 
physician. He is about 63, going on 64 years old. He is very 
comfortable. He has done quite well in his life. He lost his 
office, everything in it. His practice is over. Lost the 
hospital. Thank God his daughter, who had a preemie, demanded 
the hospital take the baby and evacuate it with her; otherwise, 
that baby would have been one of the casualties.
    He lost his house, everything in it. He was gone for the 
usual 3 days, came back after the storm. Everything. He raised 
his children, his family in that house. His daughter has gone 
through a divorce, some of which you can pin mostly on the 
trauma, the insurance issues, those kind of things. They went 
to tear down their house, demolish it. All the kids, it was 
like a funeral.
    As they tore the house down they got a call that his 
father-in-law passed away from a heart attack that morning.
    Now, this is a physician who should recognize that he needs 
anger management, and he is in depression, or signs of 
depression, and he doesn't see it but his friends all see it. 
We are dealing with people that have been jerked around for 
2\1/2\ years, and it is time we stopped it. If that is the 
case, Mr. Chairman, it is by the power of the gavel. I commend 
you for it, and I hope that you and more Members will follow 
through in these areas so we can get to the bottom of this 
whole mess.
    Thank you. I am sorry for running over time.
    Chairman Waxman. Thank you very much, Mr. Melancon. I 
appreciate what you had to say. You are constantly pushing for 
us to do more.
    I want to thank this panel. You have been terrific. You 
have given us your testimony and you have given it with emotion 
and power, and it is a compelling testimony that each and every 
one of you has given to us. Thank you so much.
    Next we will hear from the head of the Federal Emergency 
Management Agency, but I want to take a 5-minute break, and 
then we will reconvene and go right into Mr. Paulison's 
testimony.
    We stand in recess for 5 minutes.
    [Recess.]
    Chairman Waxman. Our committee will now hear from R. David 
Paulison. Mr. Paulison has served as Acting Director of the 
Federal Emergency Management Agency since 2005. He was 
confirmed by the Senate as Director in May 2006.
    Mr. Paulison, we want to welcome you to our committee today 
and recognize you for your testimony, after which we will have 
some questions.

    STATEMENT OF R. DAVID PAULISON, ADMINISTRATOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Paulison. Thank you, Mr. Chair. I appreciate it very 
much.
    Let me say before I even start that I have heard very, very 
clearly. The reason I sat in this meeting while the other 
witnesses were testifying, I wanted to hear what they had to 
say and wanted to hear it personally, and I have heard very 
clearly some of their issues. If what they are saying is 
accurate, particularly with the customer service area, I have 
obviously a lot of work to do in that area and will work on 
that. But also, for these three particular residents, we will 
followup to make sure that we take care of their issues and 
find out if there are more.
    As the Administrator of FEMA, I want to assure you and the 
citizens of our Nation that we are aware. We are aware of the 
concerns regarding the presence of formaldehyde in FEMA travel 
trailers and are taking responsible steps to address that as we 
speak.
    Chairman Waxman. I neglected to swear you in. The part you 
just said you cannot be held for perjury for having said it. 
[Laughter.]
    But I would like to ask you to be sworn.
    [Witness sworn.]
    Chairman Waxman. Thank you.
    Mr. Paulison. This part I can be held, right?
    As my written testimony, as you read, explains in greater 
detail, we have been proactive in reviewing the situation. We 
have recommended a wide range of actions that reduce health 
risk and have been working with the experts to better 
understand the health environment and investigate additional 
short and long-term solutions. I wish to make it very clear 
that the health and safety of residents has been and continues 
to be our primary concern.
    Following most disasters, those displaced from housing by 
disaster are able to obtain or are provided with short-term, 
temporary housing just outside the impacted area, then after a 
short period they can return to their homes. With the immensity 
and size of Hurricanes Katrina and Rita, this simply was not 
possible. Facing an area of devastation roughly the size of 
Great Britain, FEMA provided over 120,000 mobile homes and 
travel trailers to individuals and families throughout the Gulf 
Coast area. This was the largest emergency housing mission in 
the history of this Nation.
    Six months after their initial deployment, FEMA received 
the first complaint of formaldehyde-related odors that we are 
aware of. After a prompt review, FEMA replaced that unit in 
just a few weeks on March 19th. Since that time FEMA has 
documented just over 200 complaints of strange odors, including 
what we think is formaldehyde, and of those 200--and not to 
minimize the issue, but just for record--we have replaced 58 of 
those formaldehyde concerns, and five more have been placed 
into rental housing sources once they became available.
    One thing I want to clearly point out, though, whether the 
number of calls is 2 or 200, I am concerned with the potential 
health implication of formaldehyde in our travel trailers and 
want to better understand and address this very complicated 
issue.
    FEMA is working with the Center of Disease Control and 
Prevention, with EPA, working with HHS, working with HUD, 
working with Public Health Service, and also the Department of 
Homeland Security's Office of Health Affairs, and with industry 
partners to help investigate the situation. We know that 
formaldehyde is present in many household products, 
construction materials, and produced by tobacco smoke and gas 
cooking.
    Although ventilation and other actions reduce the levels, 
anecdotal experience that we have seen recently, especially 
from the physicians that you have heard from today and others 
caring for residents of trailers, has raised questions about 
the overall indoor quality and/or air quality of travel 
trailers and the practicality of ventilation advice, especially 
given the Gulf Coast region in the summer time.
    As we have gained experience and more knowledge, we have 
expanded our efforts to research the levels of formaldehyde in 
the units and their impact on health of all of our residents.
    Despite 30 years of research and reports on numerous 
Federal agencies, there is now no existing consensus on safe 
formaldehyde levels in residential dwellings, so again we are 
looking to the experts for advice.
    This June the Department of Homeland Security officials, 
including FEMA, again met with CDC, the National Center for 
Environmental Health, the Agency for Toxic Substance and 
Disease Registry, the National Institute of Occupational Safety 
and Health, and the National Institute of Standards and 
Technology. Together, we are beginning both short and long-term 
investigations. In fact, FEMA and CDC are scheduled to begin 
phase one of a study in the Gulf Coast within the next few 
weeks. In the meantime, FEMA continues to take action through 
updated trailer purchase specifications, improving training to 
FEMA and medical staff who respond to complaints, and continued 
education and communication with the residents. We have also 
increased our efforts to move residents out of temporary 
housing into longer-term housing solutions.
    FEMA and the entire Department of Homeland Security are 
committed to ensuring that victims of disasters are safe and 
have a healthy place to live during the recovery period. The 
health and safety of the residents is my primary concern. This 
is the concern of everyone involved in researching and 
addressing formaldehyde based issues. We will continue to 
evaluate, communicate, and mitigate the potential risk of 
formaldehyde or any other safety issue in our temporary housing 
units. Together with our Federal and private partners, we will 
work to develop sound best practices for reducing formaldehyde 
exposure in FEMA-provided and temporary housing.
    Mr. Chair, I do want to thank you for this hearing. I look 
forward to discussing FEMA's recovery efforts with the 
committee. And, as I talked to you earlier, I hope at the end 
of the day when this is done this Government, perhaps with the 
help of this committee, can come up with some sound standards 
that we can apply to not only travel trailers and mobile homes, 
but all housing units across this country.
    Again, thank you very much. I am ready to answer any 
questions you might have.
    [The prepared statement of Mr. Paulison follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Paulison.
    Without objection, Mr. Davis and I will start off the 
questioning at 10 minutes each.
    Also without objection I wanted to put a couple of 
documents in the record before I start questioning here.
    There is a statement by Paul Nelson, board member, South 
Bay Communities Association. I would like his testimony to be 
inserted in the record, as well as testimony by Becky Gillette, 
vice chair of Mississippi Chapter of the Sierra Club. Without 
objection, those two documents will be made part of the record.
    [The prepared statements of Mr. Nelson and Ms. Gillette 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Mr. Paulison, if I understand your 
testimony, you seem to be saying that there is nothing you can 
do because there is no official standard for formaldehyde? Is 
that what you are telling us?
    Mr. Paulison. No, sir, I would not say that at all. I think 
there are a lot of things that we can do. But I can say that 
there are no standards to go by, and I hope that we can set 
those standards for this long-term test that we are going to 
do.
    What I am saying that we have taken the best evidence that 
we can, the best advice we have so far about airing out 
trailers, trying to reduce the levels of formaldehyde.
    We know now and we did not know earlier that is not going 
to be sufficient during the summer time, particularly, in the 
Gulf Coast area when the heat is there. You can't open the 
windows and run the air conditioner at the same time. It is 
simply not going to work.
    Chairman Waxman. Mr. Paulison, for over a year and a half 
displaced residents of the Gulf Coast have been telling FEMA 
that formaldehyde in their trailers has been making them sick. 
One hundred and twenty thousand families have stayed in these 
trailers. There are approximately 76,000 trailers in use in 
Alabama, Louisiana, Mississippi, and Texas, and, despite all 
this time and the obvious importance of this issue, the 
documents that you provided to our committee indicate that FEMA 
has only tested one occupied trailer, and that is a trailer in 
Baxterville, MS. It belonged to a pregnant woman, Dawn 
Sistrunk, and her husband, Carlton Sistrunk, who had a 4-month 
old child. The trailer was tested only because of their unusual 
persistence.
    I want to show you a chart. It will be on the screen. The 
left-hand bar of the chart is in green, and that is the 
guideline set by the National Institute for Occupational Safety 
and Health [NIOSH], for 8 hours of exposure in a workplace 
setting. That is 0.16 parts per million. If an employee, 
according to NIOSH, is subject to levels of formaldehyde 
greater than that, NIOSH recommends the employee use a 
respirator.
    The next bar is a yellow one, and that is NIOSH's ceiling 
for 15 minutes of exposure. They recommend that workers only be 
exposed to formaldehyde at levels as high as 0.1 parts per 
million for no more than 15 minutes.
    EPA has identified 0.1 parts per million as the level at 
which acute health effects can occur.
    The next two bars are standards set by the Occupational 
Safety and Health Administration, and if workers are exposed to 
formaldehyde levels above 0.5 parts per million, exposure 
monitoring and medical surveillance is required. The same 
standards also provide that worker exposure be limited to 0.75 
parts per million over an 8-hour period.
    These are the old standards. These were set when President 
Bush's father was President.
    The next bar is an orange bar. It is EPA's acute exposure 
guideline level, which is designed to guide emergency 
responders in understanding the risks from a one-time exposure 
such as might occur after a chemical spill. The EPA guidelines 
for formaldehyde states that a one-time exposure to 
formaldehyde at levels of 0.9 parts per million should not lead 
to irreversible harm.
    And then we come to the last bar on the chart, and this bar 
represents the 1.2 parts per million level of formaldehyde that 
was monitored in the bedroom of the Sistrunk's trailer on April 
5, 2006. This level is 75 times higher than the level that 
NIOSH recommends that workers not be exposed to.
    I have a statement I put in the record from the Sistrunks 
that they reported all kinds of problems, including headaches, 
watering eyes, irritated throats. Their doctor told them the 
problem was due to formaldehyde.
    Now, do you think that the formaldehyde level that they 
were exposed to was safe?
    Mr. Paulison. Mr. Chairman, I am not an expert in 
formaldehyde and I am not going to attempt to even address 
that. I can tell you that we recognize that we have an issue. 
We know that very clearly the answer to this is to get people 
out of these mobile homes and out of these travel trailers as 
quickly as possible. We are----
    Chairman Waxman. Well let me tell you what FEMA said in 
response to this level of formaldehyde. FEMA and industry 
experts--this is your Agency said this, ``FEMA and industry 
experts have evaluated the small number of cases where odors of 
formaldehyde have been reported, and we are confident that 
there is no ongoing risk.''
    Mr. Paulison, how can you justify that statement that was 
put out by your agency? You tested only one occupied trailer. 
You found levels 75 times higher than safe. And then FEMA comes 
out and tells the public, ``We are confident there is no 
ongoing risk.'' FEMA's statement that there is no ongoing risk 
was false. A level of 1.2 parts per million is not safe, and 
this is 75 times higher than what NIOSH would say.
    There is only one reasonable way to respond to testing 
results like this, and that is to take the issue seriously, 
immediately conduct systematic testing of all these trailers to 
find out how widespread the problem was. That is exactly what 
your field staff recommended. They said the problem needs to be 
fixed today and that FEMA needs a proactive approach. They said 
there is an immediate need for testing. But you didn't do 
testing from FEMA. Why?
    Mr. Paulison. We did do testing. We tested new trailers 
that were locked up to see what the level was when we received 
the trailers, and did, once we ventilated those, did 
ventilation work to reduce the amount of formaldehyde. The 
answer was yes. However, like I said in my statement, we are 
recognizing that in the summer time that is not going to be 
reasonable to do that.
    So we are taking this very seriously. We are doing the 
testing. We are starting in just a couple of weeks to do some 
short-term testing. We want to take what the Sierra Club did--
which, by the way, was a wake-up call for us to receive that 
report that we have something more than just an individual, 
isolated case. We recognize that we may have something much 
larger than isolated cases.
    Chairman Waxman. Mr. Paulison----
    Mr. Paulison. So we are going to expand what the Sierra 
Club did, doing much more scientific----
    Chairman Waxman. Mr. Paulison, I am going to interrupt you. 
You got a wake-up call? You must be a very hard sleeper, 
because that wake-up call was over a year ago, and FEMA did no 
further testing. After you received these results, your 
attorneys put out a statement through e-mails that implied that 
FEMA is going to own this issue if you do testing. That shows a 
complete indifference to the welfare of the families living in 
these FEMA trailers, because no testing was done and your 
lawyers said if you do testing you may start owning the 
problem. What do you make of that?
    Mr. Paulison. The attorneys are hired for a particular 
reason, and they are there to protect from litigation; however, 
the Department did not stop dealing with the formaldehyde 
issue, regardless of what our attorneys said. We were going----
    Chairman Waxman. Did you test any other occupied trailers?
    Mr. Paulison. We did not test occupied trailers.
    Chairman Waxman. So you tested----
    Mr. Paulison. We went along with the advice that we 
received from EPA----
    Chairman Waxman. And your lawyers?
    Mr. Paulison. No, sir. And CDC, if I can finish my 
sentence, please, and CDC that if we ventilated the trailers 
that would reduce the formaldehyde issue.
    My concern is----
    Chairman Waxman. Did you test to see whether it did reduce 
the formaldehyde levels?
    Mr. Paulison. It did in our testing on the empty trailers.
    Chairman Waxman. On the empty trailers where the fan was 
going, where the windows were open, where the air conditioning 
was running 24 hours a day? What about where people were 
living?
    Mr. Paulison. Mr. Chair, we were not formaldehyde experts. 
We were taking this as it went along, as this thing developed 
and got larger and larger. We recognize now that we have an 
issue. We are dealing with it in the best manner we can. Again, 
the alternative----
    Chairman Waxman. EPA told you the following: ``The 14 day 
exposure maximum may be 0.03 parts per million, and the 1-year 
level may top out at 0.008 parts per million. The levels we 
find after testing may well be more than 100 times higher than 
the base levels.'' If you are relying on EPA, they were telling 
you this was a problem, as well.
    Mr. Paulison. I am telling you, in hindsight we could have 
moved faster. I am telling you now we recognize we have a 
problem. We recognize we have an issue. We are not even sure if 
it is formaldehyde that is causing the problem. That is why I 
have asked CDC to test for not only formaldehyde, I want them 
to test for airborne bacteria, I want them to test for mold, I 
want to test for mildew. I want to look at the different 
trailer manufacturers.
    If your attorney would sit down let me finish, we want to 
test for everything out there. I want to test the different 
trailer sites. I want to test the different manufacturers. I 
want to find out very clearly what the issue is and where the 
problem is and what we can do about it.
    Again, the answer is to get people out of the travel 
trailers. We have never had this type of----
    Chairman Waxman. Mr. Paulison, the staff a year and a half 
ago said you should be testing the occupied trailers. The 
testing didn't take place. Your lawyer sent an e-mail saying if 
you test them you may take ownership of it. You said you didn't 
follow the advice of your lawyers. You said you followed what 
EPA had to say. EPA's statement is that the levels that they 
were seeing were too high for human health.
    Now, there may be other problems, but you don't think, even 
at this date, that the formaldehyde levels were too high and 
might have endangered public health? Is that your testimony?
    Mr. Paulison. No, sir. What I am trying to tell you is we 
simply did not have a grasp of the situation at the time. As it 
went on, we are getting a better grasp of the situation. We are 
advising people what to do. We are telling them numerous 
issues. I am telling you where we are moving forward with this 
organization. You can criticize me for what we did or didn't 
do, but I am telling you we understand there is an issue, I do 
care about the residents of these trailers. I will----
    Chairman Waxman. You think my criticism is unfair?
    Mr. Paulison. Pardon?
    Chairman Waxman. Do you think my criticism is unfair?
    Mr. Paulison. I think it is because we are looking at 
things in hindsight and not how they were at the time. We are 
now recognizing, as we have all along, that we do have an 
issue, and we are going to deal with it. We have----
    Chairman Waxman. Mr. Paulison----
    Mr. Paulison. We are moving----
    Chairman Waxman. Yes, I know you are telling me what you 
are going to do, but your own staff said what you should have 
done a year and a half ago. That is not hindsight. You didn't 
have the foresight to listen to your own staff, but you did 
have the wrong judgment to listen to the bad advice of your 
lawyers.
    My time has expired and I am going to recognize Mr. Davis 
for his time to question you.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Paulison, your testimony indicates there are 
approximately 200 known complaints about formaldehyde, but data 
you provided shows you have over 60,000 trailers still in use?
    Mr. Paulison. Yes, sir.
    Mr. Davis of Virginia. How many units did you actually 
deploy for Katrina and Rita?
    Mr. Paulison. We had a little over 120,000 between Katrina 
and Rita.
    Mr. Davis of Virginia. What is your trade-out policy? In 
other words, if someone were to complain, don't you still have 
trailers sitting there in Arkansas somewhere?
    Mr. Paulison. Yes, sir. We do have a large trailer base in 
Arkansas. If we have a formaldehyde complaint and we go out to 
the trailer and talk to the people expressing those symptoms, 
we offer to exchange that trailer out, and we will do that. In 
some cases we have changed trailers out twice. We try to bring 
in a used trailer that has been off-gassed for a long period of 
time. We clean it up and bring it in and change that out.
    In some cases, where it still has not worked, we have put 
people in apartments.
    One of the issues is about 80 percent of that 60,000 that 
are in travel trailers are actually backed up in people's 
driveways while they are rebuilding their homes. Those people 
do not want to move. The other 20 percent are people in the 
group sites. We are focusing in getting those people out of 
those group sites because there is not necessarily a plan in 
place that they have where they can move out.
    We know the answer is to get people out of these. Again, 
this was the largest emergency housing effort the country has 
ever done. We have never had an opportunity to keep these 
numbers of people in travel trailers that we have used for 20 
years in situations like this, so this was something new for 
FEMA to deal with.
    In hindsight, maybe we could have moved faster. We are 
moving about 600 to 800 families a week out of travel trailers 
into apartments.
    Mr. Davis of Virginia. But you heard the previous panel and 
the stories that they endured. Why didn't you just give them a 
new trailer? It is pretty clear they had a problem.
    Mr. Paulison. These three, I don't know why they had the 
troubles they did. We will look into that.
    Mr. Davis of Virginia. Do you think, in retrospect, after 
hearing the testimony, you should have just given them a new 
trailer?
    Mr. Paulison. They should have been dealt with with much 
more respect, from what I heard, and I will find out why that 
happened. That is obviously a customer service issue. The 
philosophy of this organization is to treat people with respect 
and give them the respect that they deserve and to take care of 
their needs as quickly as we can.
    Mr. Davis of Virginia. Well, it sounds like some of the 
people on the ground understood that, because they said we have 
a problem, they got the complaints, they filtered it up, but it 
sounds like that has not infiltrated in the General Counsel's 
office.
    Mr. Paulison. The General Counsel does not set policy for 
this organization. They do give advice to us. They do deal with 
litigation issues. I set policy for the organization.
    Mr. Davis of Virginia. But you did follow their advice, in 
terms of some of the documents that have been produced. They 
stonewalled us, as Mr. Waxman noted, until the end. That comes 
out of the General Counsel's office. I mean, I think they need 
some adult supervision over there, because I think they have 
lost any customer service aspect of this. I think they are just 
hard-line attorneys.
    We are really here trying to solve the same problem.
    Mr. Paulison. Yes, sir.
    Mr. Davis of Virginia. We have done numerous hearings on 
where FEMA is. We will have to do another one, I think, on what 
we are doing to prepare for next year.
    I understand the General Counsel has a bent that they are 
trying to protect the Agency and everything else, but they need 
to understand, in a case like this, you are first of all a 
customer service organization, so instead of saying we are 
going to delay this, we are going to cover this up, they ought 
to be looking at ways to get the job done.
    As I have looked at the documents and e-mails--and I think 
Mr. Waxman agrees--that wasn't the direction they were going at 
all.
    Mr. Paulison. That might not have been the direction the 
attorneys were going in, but that definitely was not the 
direction that the organization was heading. The organization 
was progressing down the road as this thing progressed to stay 
up with it and find out what the problems were. We felt like we 
were dealing with it in the best manner that we could.
    Mr. Davis of Virginia. Can you tell us why there wasn't a 
telephone number on the brochure that was given to trailer 
occupants so if there was a formaldehyde problem or some other 
problem they could call a central clearinghouse?
    Mr. Paulison. Yes, sir. There are 27 different maintenance 
groups that take care of these trailers. It is posted in every 
trailer. We want the people to call that number, and not a 
general number that would not be able to deal with their 
problem. It would not make sense to put a number on the 
brochure when the residents are advised and told when they have 
a problem with the trailer to call that maintenance number. 
That system works pretty well.
    Mr. Davis of Virginia. All right.
    Let me just get back to the General Counsel's office a 
minute. I mean, this hearing wasn't on the calendar until the 
middle of last week. It was a direct response to FEMA's 
production of documents made last Monday, July 9th. FEMA 
withheld documents citing attorney/client privilege and the 
work product doctrine, but in the face of subpoena the 
documents were produced. As has been noted, they tell an 
unfavorable story.
    All of our staff tells us the documents were arguably not 
privileged. For these privileges to be recognized--and they are 
not applicable to Congress, by the way--you must carefully and 
methodically lay out a case. If you claim attorney/client 
privilege, you need to produce a privilege log. You need to 
produce redacted information. You need to write us a narrative 
articulating the potential harm to the United States if the 
privileged materials are disclosed.
    Your lawyers didn't do any of this: no privilege log, no 
narrative articulating the harm, no redacted documents. They 
didn't even put date numbers on the pages. Were you involved in 
any of the decisionmaking about this legal strategy?
    Mr. Paulison. No, sir. My philosophy is to run a very open 
organization, and I want to personally apologize to the 
committee for you not getting the documents you wanted in a 
timely manner nor in the method that you needed them. We have 
since turned over, I think, pretty much everything you have 
asked for, but you should have gotten it when you asked for it 
the first time.
    Mr. Davis of Virginia. Yes. Let me just go through it 
again. The legal strategy with regard to the so-called 
privileged documents ended up doing you in. Your lawyers 
complained about privilege, and then, when it was time to show 
your cards, there was nothing there. You were just hiding all 
the smoking guns. Things might have been different if you had 
come up with the materials to begin with.
    Wouldn't you agree, Mr. Waxman?
    This should be a message to other agencies out there where 
we see some of the same things. By drawing so much attention to 
them, you essentially placed a gigantic spotlight in the worst 
possible place.
    Now, I guess the question this committee has to ask, is 
this a FEMA problem? Is this a DHS problem? Or do you think it 
is a Government-wide problem?
    Mr. Paulison. I don't know that I can answer that. I can 
tell you that my philosophy is to, when the committee needs to 
do an investigation, to give you every document that we can 
legally give you in a timely manner. That did not happen in 
this case. Again, my personal apologies for that. We will work 
to make sure that does not happen again.
    Mr. Davis of Virginia. Now, Mr. Paulison, you are neither a 
doctor nor a scientist nor is FEMA a medical or a scientific 
agency. How are you qualified to assess the health risks from 
formaldehyde or recommend strategies to address the issues?
    Mr. Paulison. You are correct. I don't have that expertise. 
Thirty years as a paramedic, but that doesn't give me a 
background in formaldehyde issues. We lean on the advice of our 
experts. That is why I am going to all of these different 
agencies, not just one, working with the ones that I laid out 
earlier--with CDC, with EPA, with HHS, with HUD, with everyone 
who deals with these types of issues--to give us very clear 
advice and we can make some sound decisions.
    Yes, in hindsight we could have moved quicker than we did; 
however, we do recognize we have a problem. I do recognize it 
is something we need to move very quickly on. That is what we 
are going to do.
    I want to find out what the extent of the problem is, but 
at the end of the day I also want to be able to come up with 
something this country has never done, and set some good, solid 
standards down that we can use for future mobile homes and 
future travel trailers so we don't have this problem in the 
future.
    Mr. Davis of Virginia. Now, your agency has been using 
travel trailers and mobile homes for as long as people can 
remember, haven't they?
    Mr. Paulison. Yes, sir.
    Mr. Davis of Virginia. Has this issue ever come up before 
on this scale?
    Mr. Paulison. Not that I am aware of.
    Mr. Davis of Virginia. Do you have any historic knowledge 
in the Agency so that you can see if this has happened----
    Mr. Paulison. I have asked several people inside the Agency 
have we had this problem before, and nobody can remember of 
any. We are going to go back and search our records to see, but 
as far as anecdotal, nobody that I have talked to recalls 
anything like this before.
    But also we have not had this number of people in travel 
trailers for this amount of time, so these problems that are 
cropping up are obviously things we have to deal with, but it 
is not something we had any experience with.
    Mr. Davis of Virginia. Do you think they were because of 
the number and the rapid production, that maybe something was 
lost in that? Where do you think it came from?
    Mr. Paulison. That I don't know, and that is what we need 
to find out. We need to find out why we have an issue, is it 
the travel trailers, is it the fact that they had flooding. 
Again, we don't know what the real problem is. I mean, my gut 
feeling is--I can't go by gut feelings, based on what happened 
with the Secretary--there is an issue inside the trailers, but 
I don't know whether it is formaldehyde or mold or bacteria or 
whatever it is. That is what the CDC is going to tell us.
    Mr. Davis of Virginia. You are not positive at this point? 
You are waiting for the CDC to say if it is formaldehyde or 
from another source, but you are working with CDC to resolve 
it?
    Mr. Paulison. Yes, sir. But in the meantime, if people are 
having problems we are going to be much more aggressive as far 
as trading these trailers out and trying to find--we are 
working very hard to try to find housing for people. There 
simply is not enough housing in the State of Louisiana or 
Mississippi to move these people into. The ones that are backed 
up into their driveway rebuilding their house don't want to 
leave the State and go somewhere else; they want to be where 
their homes are, where their jobs are, where their friends are, 
something they are familiar with.
    And we are trying desperately, as apartments come back 
online, to move people out of those travel trailers into 
apartments, because we know that is the real answer. They 
should not be in these little, tiny travel trailers this long. 
It is not a good place to live. We recognize that. But that was 
the only tool that FEMA had in its quiver to be able to get 
people some decent housing on the ground very quickly, and that 
is where we are.
    Mr. Davis of Virginia. Mr. Chairman, we have seen a number 
of e-mails that, again, just show the lawyers were reluctant to 
move forward on testing. Liability seemed to be their chief 
concern, not customer service. Any sophisticated organization 
needs to factor in liability concerns when responding to a 
crisis. I was a General Counsel. I understand that. But at the 
end of the day isn't it better, from a liability standpoint, as 
Mr. Waxman said, to be aggressive for the health and safety of 
the people that FEMA houses? If it turns out to be a 
manufacture problem or caused by some other external entity 
other than the U.S. Government, aren't we better positioned if 
we aggressively minimize the negative health effects? I think 
that was your point, Mr. Waxman.
    Mr. Paulison. The answer is obviously yes. I mean, the 
easiest way to deal with litigation is to deal with the 
problem, and that is what we want to do.
    Mr. Davis of Virginia. OK. Thank you.
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Paulison, you said in hindsight you wished you would 
have gotten the materials to us earlier, even though your 
people were trying to hide behind an attorney/client privilege 
excuse not to give it to us, and you apologized to us for the 
delay. You also didn't get your testimony in 48 hours in 
advance. We got it in last night after 8. You apologized to the 
committee. Do you think you owe an apology, in hindsight, to 
the people who have been suffering illnesses because of 
formaldehyde in your trailers that were not tested by FEMA?
    Mr. Paulison. Sir, I don't know that would resolve the 
answer. I feel very, very badly for the people that are 
becoming sick. I don't know 100 percent for sure it is the 
trailers. I mean, it very well may be. We made what we felt 
were very prudent decisions along the way. Could we have made 
different decisions in hindsight? Obviously, the answer is yes. 
But, again, it is a problem we have never dealt with before. It 
is an issue where we thought we were moving along with good 
advice. You know, we all look back on decisions we made, and if 
we had a chance to redo some of them we would do that.
    Chairman Waxman. Thank you.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman.
    Mr. Paulison, thank you for your patience.
    In a direct response to one of our Members who asked you 
about your General Counsel, you said the attorneys don't set 
policy, I set policy. So let me see where you would go with 
setting a policy by addressing these questions.
    Would you agree that formaldehyde can be harmful to one's 
health?
    Mr. Paulison. That is what medical experts tell me. I don't 
have personal knowledge of that, obviously. I don't have that 
type of training.
    Ms. Watson. Would you agree----
    Mr. Paulison. Everything I----
    Ms. Watson. Yes? No?
    Mr. Paulison. Everything that I read says that long-time 
exposure to formaldehyde can cause medical problems.
    Ms. Watson. Would you agree?
    Mr. Paulison. Yes. What I just said is what I agree to, 
that everything that I have read and everything that I have 
been told is----
    Ms. Watson. No. Just answer my question. Do you agree? Yes? 
No?
    Mr. Paulison. I stand on my answer I just gave you.
    Ms. Watson. Would you agree that formaldehyde can be 
harmful to one's health? Yes? No?
    Mr. Paulison. I don't know the 100 percent answer to that, 
Congresswoman. I am trying to be very respectful. I am saying 
that what I have been told is the answer is yes, that long-term 
exposure to formaldehyde could cause medical problems.
    Ms. Watson. I can tell you scientifically it does, and all 
you have to do is go and be tested for formaldehyde exposure. 
Maybe that will make you a believer. So you are not so sure 
yourself? That is what I am getting out of your response, 
because I asked you for a yes or no and you gave me a lot of 
other verbiage, so I will take that answer as not being sure.
    Mr. Paulison. Ma'am, I am not trying to say that. You know, 
you are asking me to----
    Ms. Watson. No. I asked you do you----
    Mr. Paulison. You are asking me to give you a medical 
opinion, and I am not qualified to do that. I am telling you 
what I have been told: that long-term exposure to formaldehyde 
can cause medical problems. I heard what you said earlier.
    Ms. Watson. But you are not sure? OK. So if you say that 
long-term exposure as, I guess, provided by someone else, would 
you then take your contaminated stock out of your inventory?
    Mr. Paulison. The answer is yes. If we have stock that we 
cannot get rid of the formaldehyde in or reduce it to 
acceptable levels, then we should not be using it.
    Ms. Watson. Well, I can tell you this: it is a substance 
that is in the building materials, and if that substance is 
there, that is the cause of the health conditions of the people 
who are living in there. I mean, it doesn't air out for years. 
As long as it is there, it is going to cause a problem to 
health.
    Knowing that, would you then remove those trailers? Now, I 
understand there are millions of dollars in FEMA that has not 
gone to benefit many of the victims, and so can you get rid of 
your stock that is in question and replace that stock that has 
no formaldehyde in it?
    Mr. Paulison. We are getting ready to do some very 
significant testing of the travel trailers that are being 
occupied under some very tough conditions, ones that have been 
cooking in, smoking in, all the types of things that cause 
formaldehyde----
    Ms. Watson. Let me just interrupt you from that 
explanation. If you find the presence of formaldehyde, would 
you take those trailers out of your inventory?
    Mr. Paulison. Yes. If we find trailers that have 
unacceptable--formaldehyde is everywhere. You can't get rid of 
it. But if we find some unacceptable levels of formaldehyde we 
cannot mitigate, we will trade those trailers out.
    Ms. Watson. That is the point I am getting to. Let me 
restate my question. If you find there is formaldehyde in the 
building parts of the trailers, would you take those trailers 
out? Or are you looking for a certain level of formaldehyde?
    Mr. Paulison. I think we would be looking for a certain 
level. There is probably formaldehyde in this room. There is 
formaldehyde in your clothes. My permanent press shirt has 
formaldehyde in it. It is everywhere. Our body produces 
formaldehyde, from what my people tell me. If you----
    Ms. Watson. Mr. Paulison, excuse me. My time is up.
    Mr. Paulison. I am sorry.
    Ms. Watson. My time is up, and I am going to give it back 
to the Chair. But I can just say that if you have humans inside 
of your trailers, I would think you would err on behalf of the 
human condition and take those trailers out of your inventory. 
You can test them later. But we do know that formaldehyde, 
almost any dosage, has an impact on one's health. I would hope 
that you, as the policymaker, would see that all of your stock 
that might have trailers in it would be free of formaldehyde.
    Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Administrator, thanks for your testimony. Certainly, 
while we have concerns about inadequate response of your Agency 
on this issue, we appreciate your efforts and your staff at all 
levels in trying to do right by their fellow citizens.
    I do have a couple of questions that are, I guess, 
followups, one on the health question that the previous speaker 
addressed with you. I appreciate you are not an expert and 
that, based on what you have been informed----
    Mr. Paulison. Can you speak up? I wear a hearing aid and I 
can hardly hear you. Sorry.
    Mr. Platts. Let me try to speak more into the mic.
    Mr. Paulison. Too many sirens and air horns. Sorry.
    Mr. Platts. In response to the gentlelady's questions 
regarding exposure to formaldehyde, you said, based on what you 
have been told by experts and have read and been informed, that 
long-term exposure to formaldehyde can be harmful to your 
health?
    Mr. Paulison. That is correct. It could be harmful to your 
health. Yes, sir.
    Mr. Platts. You also, I think, have been told that even 
short-term high exposure can be harmful to your health, as 
well?
    Mr. Paulison. Yes, sir.
    Mr. Platts. And I think that is part of the issue here, and 
the testing that has been done, and the chairman's, different 
standards is at different levels for different levels of 
exposure. How long you are exposed impacts how high or low that 
level is before it is of concern, and that is your 
understanding, as well?
    Mr. Paulison. I'm sorry? Could you repeat that again?
    Mr. Platts. Depending on how long you are exposed and what 
level would impact whether it is a health risk?
    Mr. Paulison. Again, that is my understanding.
    Mr. Platts. OK. You have acknowledged that the testing 
conditions under which your Agency moved forward are now 
inadequate and unrealistic, especially for the summer months. 
Is there at least some acknowledgment that should have been 
understood up front, that it seems unrealistic, the approaches 
taken, and that the testing, if it was going to be in 
unoccupied trailers, at least should have been under normal 
conditions that could have been expected?
    Mr. Paulison. I think in hindsight, you know, you can 
always say yes. Again, I think this Agency made the best 
decisions it could with the information that it had. Looking in 
hindsight, should we have started testing individual trailers 
back in January or an earlier time, you know, working out 
issues with the CDC trying to define the problem? You know, you 
can always say yes.
    Mr. Platts. Now, when those conditions were set for that 
testing, because by what has been shared with us it seems very 
much the case that the General Counsel's office was clearly 
what you stated about avoiding litigation. I would say about 
avoiding possible liability. If I heard your statement right, 
you said attorneys are hired for a particular reason, to 
protect against litigation. I was an attorney. I don't believe 
that is why attorneys should be hired. They are hired to give 
counsel what the law is so that policymakers comply with the 
law, not to avoid litigation.
    Mr. Paulison. And I didn't mean to narrowly define it. All 
the other issues you said are correct, also. It is all of those 
type of things. It could be good legal advice, but they also 
work, just like any attorney does, whether corporation--but, 
again, they don't set policy for me. They were not giving me 
direction not to do testing. We were making decisions we 
thought were prudent at the time. We did test trailers that 
were new to see did they come with formaldehyde. The answer was 
yes.
    And could we do something about it? At that time the answer 
was yes. But now we know that we have to do something different 
than we have done in the past. Just like we are rebuilding this 
organization after I took over after Katrina, a lot of 
problems. A lot of cultural problems. A lot of systemic 
problems. We are in the process of fixing those. This is one of 
those things we have never dealt with before. We may not have 
dealt with it in the best manner we could have, but now we 
learned from that and we are going to do that.
    Mr. Platts. I am going to run out of time here. I 
appreciate this effort of rebuilding and getting it right. One 
piece of advice I would share is that if you have a liability 
at hand and there is litigation and yes, it is better for all 
parties if you can settle it, as opposed to going to court in a 
long, drawn-out court case, but their duty is not to avoid 
litigation in any sense, in other words, liability, and that 
they would be reminded of what their duty is.
    But a specific question is: regarding those testing 
conditions, was the General Counsel's office consulted or legal 
counsel consulted in any fashion in how the conditions were set 
regarding the testing that was done?
    Mr. Paulison. No, sir, not that I am aware of at all. We 
wanted to do the right thing. We thought we were doing the 
right thing at the time.
    Mr. Platts. I want to get into quickly a specific case. Mr. 
Stewart, who testified earlier, clearly his case was mishandled 
by many, including right down to when supposedly, based on his 
testimony, at least 15 FEMA personnel were onsite, yet those 15 
people couldn't see that they delivered a trailer that was 
wholly unacceptable, bugs in the bed, the septic system 
apparently not working.
    As you go forward, I hope, as you stated in your testimony, 
you are going to look at those three cases specifically and 
followup with them.
    What happened that 15 or more FEMA personnel were onsite 
and yet delivered an unacceptable trailer? And what 
consequences occurred? In other words, was anyone reprimanded, 
disciplined in any way for such failure of service to someone 
in need?
    I do appreciate that you are trying to get it right, and 
hindsight is a lot easier, but one of the aspects of hindsight 
is making sure that there are consequences for wrongful action, 
not where there is good faith and something just went wrong, 
but when there is just failure of good diligence. In that case, 
if the facts that he shared are anywhere close to accurate, 
there was a significant failure of good service, and there 
should be a consequence for that.
    Mr. Paulison. And I am going to look very carefully at all 
three of these cases from a customer service perspective. I 
need to find out was his statement accurate. I'm sure with 15 
people there I am sure I can find out, and we will investigate 
that.
    We want to provide the best customer service we can. The 
philosophy of this organization that I put in place since I 
have been here is that the victim comes first, above everything 
else that we do, and that is what we want to do. And if that 
has not happened in these particular three cases--there may be 
more, according to Congressman Jindal, who is doing a great 
job, by the way, down there--then that is where I need to work 
on also.
    Mr. Platts. Thank you.
    Mr. Paulison. Along with getting ready for hurricane 
season.
    Mr. Platts. Thank you again for your testimony and your 
service.
    I yield back, Mr. Chairman.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Administrator, I have to tell you I would feel a lot better 
if you agreed to do the following. Again, I want to go back to 
what one of the witnesses said. He said there is a sense of 
helplessness and hopelessness.
    Let me tell you what you need to do. You have people who 
may not even know they are in trouble that are living in these 
trailers right now. What I would like for you to do, Mr. 
Administrator, is put the word out and say that if you suspect, 
if you are having vomiting, you are having all the things, to 
all these people who are in the trailers, let us know and we 
are going to address your problem. That is what I would like to 
see you do.
    Mr. Paulison. I will do that.
    Mr. Cummings. All right. Good. We are going to hold you to 
it.
    Mr. Paulison. I will do that.
    Mr. Cummings. Because I just feel that there are people in 
jeopardy right now, and you don't know how much better I feel 
about that because of the next line of questioning.
    The documents show that several occupants have died while 
living in FEMA trailers, and that there were concerns that 
formaldehyde could have caused the deaths. Sadly, one of the 
occupants passed away just last week. On each occasion, FEMA 
was made aware that formaldehyde may have been a factor, and on 
each occasion nothing was apparently done.
    Mr. Paulison, please turn to exhibit M. This is an internal 
FEMA e-mail from June 27, 2006. I am going to read it so that 
we all can hear it. It says, ``A FEMA applicant was found dead 
in his trailer at St. Tammany earlier today. We do not have 
autopsy results yet, but he had apparently told his neighbor in 
the past that he was afraid to use his A/C because he thought 
it would make the formaldehyde worse. It may not have anything 
to do with formaldehyde, but I agree with Mark that we need to 
deal with this head on.''
    On the following day this issue was raised again. If we 
turn to exhibit N, you can see in this e-mail that FEMA was 
committing to testing the trailer in order to better understand 
the reason for the fatality. The e-mail reads, ``There was a 
death yesterday in a travel trailer in Slidell blamed on 
sensitivity to formaldehyde. Ratcliff got together a conference 
call with CDC, FEMA, Environmental Protection Agency, housing 
and safety. We will monitor the trailer in question as soon as 
we get access to it.''
    There were 28 officials from six agencies on the conference 
call. They recommended that FEMA take six actions. These 
actions included: determining the cause of death; sampling the 
air in the trailer; requesting the Consumer Product Safety 
Commission to vet FEMA trailers against the industry standard; 
and identifying an independent, non-governmental agency to 
conduct tests of indoor air quality and evaluate these 
policies. This is exhibit O, page 3.
    These were sensible recommendations. Do you know whether 
they were implemented, any of them?
    Mr. Paulison. No, sir. I am not familiar with the 
conference call and I don't know whether they were implemented 
or not.
    Mr. Cummings. OK.
    Mr. Paulison. I do know that the cause of death of the 
particular person--and our hearts really go out to the 
families. My father died from emphysema, so I know that lung 
disease is very difficult--is up to the medical examiner and 
the physicians to tell us the cause of death, so we should not 
even get into that at all.
    I don't know if any of these things were implemented, but I 
will find out and report back to the committee on that.
    Mr. Cummings. Well, the committee asked for every document 
that FEMA had about formaldehyde. We searched and searched for 
evidence that FEMA followed up on this death, as the Agency had 
recommended, and we could find none. Instead, we found an e-
mail from a FEMA lawyer that called the recommendations ``not 
acceptable'' and told FEMA not to do anything. That is very 
interesting.
    Mr. Paulison. Again, I was not aware of this particular 
conference call, but I will followup.
    Mr. Cummings. I am so glad that Mr. Waxman scheduled the 
hearing, the witnesses the way he did, because usually people 
like you come first and then the other witnesses, the victims, 
come second. But earlier you were here to hear the testimony 
and Mr. Cooper stated a very interesting question. He was 
talking about a study that found 1.2 PPMs of formaldehyde, I 
think it is, in a bunk area. Did you hear that question?
    Mr. Paulison. Yes, sir, I did.
    Mr. Cummings. And he said he wondered whether 
administrators or anybody would allow their child to sleep in 
such circumstances. Would you allow yours?
    Mr. Paulison. The answer is no. I can give you a straight 
answer.
    Mr. Cummings. Alright.
    Mr. Paulison. That test was taken with a closed-up trailer 
with the air conditioners off, and probably was not conducive 
to what was really happening under actual living conditions. 
However, if I give you an answer, the answer would be no.
    Mr. Cummings. Thank you. Mr. Paulison, just last but not 
least, because you said something that is very, very important 
and I want to make sure the record is abundantly clear. You are 
going to put out a notice to all of these people--and correct 
me if I am wrong--who are in these travel trailers letting them 
know of all of these things that people complain of that are 
natural, usually the things that people complain of with 
formaldehyde, letting them know that there is a way that they 
can contact somebody to have this thing checked into so that we 
will not have victims sitting there helpless, hopeless, and 
uninformed.
    I know your lawyers--and I am a lawyer--are worrying about 
your liability and everything, but let me tell you something: 
at the rate we are going, if we have tens of thousands of 
people sitting in these trailers, we are going to have a 
problem. So you are committing to us today that you are going 
to put that word out? And that when these people call, they 
will be calling somebody?
    Mr. Paulison. Yes, sir.
    Mr. Cummings. Thank you.
    Mr. Paulison. I have committed to do that and I will do 
that, and I will give you a copy of the notice that we send 
out.
    Mr. Cummings. I thank you very much.
    Mr. Paulison. Yes, sir.
    Chairman Waxman. Thank you, Mr. Cummings.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Paulison, I guess you say my goodness, what goes around 
comes around, because you are now meeting me in the third 
committee in which I serve, my own subcommittee, which has 
primary jurisdiction over FEMA, the Homeland Security 
Committee, which has jurisdiction for Homeland Security 
purposes, and the Oversight Committee, which always has 
oversight over Government operations.
    Do you recall that the formaldehyde story first broke many 
weeks ago when you came before me on another subject 
altogether, and at that time, because it had literally just 
broken, I asked you about the formaldehyde, and do you recall 
saying that there was no danger and that you had been told that 
what people should do is open the windows?
    Mr. Paulison. That is correct.
    Ms. Norton. Where did you get that advice from, sir?
    Mr. Paulison. I got that advice from the EPA and CDC, that 
if we could air out the trailers that it would off-gas the 
formaldehyde. That was information we had that----
    Ms. Norton. What would they say about that advice today?
    Mr. Paulison. What we are saying now is, given it is summer 
time in the Gulf Coast----
    Ms. Norton. It was summer time then.
    Mr. Paulison [continuing]. That probably is not a practical 
solution. Again, you know, we talked about this earlier. We 
made the best decisions we could with the information we had. 
This is something new for us.
    Ms. Norton. Well, you testified under oath that people 
should air out their windows, but let me take you back to a 
year earlier in July where we now, as a result of papers 
obtained by this subcommittee, learned of a memorandum that 
you, yourself, wrote to Secretary Chertoff concerning the 
status of current litigation. I am going to quote from that 
memorandum. ``FEMA's overall level of exposure for damages is 
low. Individual plaintiffs, in order to succeed, bear the 
burden of proof and must establish specific harm and damages. 
Based on the limited information known so far, this is likely 
to be a very high threshold for them to meet.''
    It is true that the burden is on whoever sues, but who 
advised you that the threshold would be difficult to meet a 
year before this matter came to the light of the Congress or 
the press?
    Mr. Paulison. Congresswoman, I really don't recall. That is 
an honest answer. I don't recall who gave me that advice.
    Ms. Norton. Well, we have a document that says that, 1 
month prior to this memorandum, that a FEMA employee had stated 
that your own General Counsel--here I am quoting again from 
your own internal documents--``General Counsel has not wanted 
FEMA to test to determine if formaldehyde levels are, in fact, 
unsafe.''
    Of course, there has been other evidence produced in this 
hearing that indicates that FEMA intentionally did not test 
trailers in order to avoid liability. How do you respond?
    Mr. Paulison. That is not accurate. That is not my 
philosophy at all. We were making what we thought were good 
decisions at the time. We recognize now that we are going to go 
test it in real, live conditions with----
    Ms. Norton. Let me just say----
    Mr. Paulison [continuing]. With people living in those 
trailers.
    Ms. Norton. Mr. Paulison, just let me advise you, you need 
to get other, better lawyers. Let me advise you, as a lawyer, 
you have increased your liability. You are always in a tough 
situation when, in fact, you may be sued. I am not sitting here 
to say you must incriminate yourself. What I am saying is that 
you must mitigate your liability and you must make sure that 
you are not indicating that there is no liability and you don't 
need to do anything.
    Now, I believe that you have increased your liability 
because I believe plaintiffs may be able to show you knew or 
should have known, and therefore to have purposefully not 
mitigated the situation for them may have put you in more hot 
water than you would otherwise have been. You need very good 
lawyers when you face this situation; instead, you had people 
who were acting stupidly defensively. You must defend yourself. 
No one said the Government must come forward and say whatever 
you say is the case. The burden is on whoever sues. But, 
particularly for a public official, the burden is on you to 
show that, when you knew or should have known, you mitigated 
the problem by testing or doing whatever you had to do. You can 
test, as you know, under the law, without that being held 
against you. When you begin to mitigate, the plaintiff cannot 
say therefore you must be guilty.
    You have testified here that the answer--and I am 
paraphrasing--is really to get rid of these trailers. Mr. 
Paulison, we had a hearing on getting rid of these trailers and 
we tried to do it the right way. We called before us and you at 
the same time the dealers, and we learned at that time that if 
you dump trailers, particularly since most of these dealers are 
in small towns where that is the only industry, you have so 
many trailers. Yet, you testified here today I think that you 
had 20,000 trailers still. If this is a question of old 
trailers, I have to ask you: what are you doing to offload the 
trailers, to not have a situation like we had in Oklahoma where 
we couldn't get trailers, even though they needed them from 
you, and to reduce this inventory of trailers so that we are 
not faced with people living in formaldehyde-ridden trailers? 
When are we going to offload these trailers without dumping? 
What progress have you made in doing that?
    Mr. Paulison. The comments that I made here were not 
related to getting rid of trailers, but moving people out of 
the trailers. When I said we are getting----
    Ms. Norton. Into brand new trailers?
    Mr. Paulison. Pardon?
    Ms. Norton. Into brand new trailers?
    Mr. Paulison. Moving people out of trailers into 
apartments. That is what I meant when I was talking about here 
about moving people out, about getting rid of the trailers, 
getting them out of the trailers----
    Ms. Norton. When are you going to get rid of the inventory 
of trailers which we now know some of which may have 
formaldehyde in them?
    Mr. Paulison. All travel trailers have formaldehyde in 
them. You know, we are excessing them through GSA. Some of the 
residents who have those trailers, 20,000-some have asked us if 
they can have those trailers. It is obvious that we are going 
to have to at least post something in those trailers to let 
them know up front that there is potential for formaldehyde.
    Again, we are learning a lot, and your questions are right 
on target. We are learning a lot about travel trailers and 
mobile homes, that they are not designed to stay in for the 
amount of time that people are in these things. They are meant 
to go camping in. But, again, when FEMA made the decision to 
start using these, that is the only tool they had in their 
toolbox to get people housed in a very quick manner, and it 
seemed reasonable at the time. And it works very well when you 
back it up in somebody's driveway where they are rebuilding a 
house. It does not work well with the group sites. They should 
be mobile homes or something else.
    Chairman Waxman. The gentlelady's time has expired.
    Mr. Paulison. And I know I am taking too much time, but I 
think this is important. I am sorry, Mr. Chair. We are working 
with HUD to find a better way to house people after a disaster, 
and it is not continuously to put them in travel trailers.
    Chairman Waxman. Thank you, Ms. Norton.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    There is a lot of talk about the lawyers and whether 
lawyers did the right thing or did the wrong thing. I am a 
lawyer, too. I guess all the lawyers are left here on the 
committee. There is a period before the lawyers get into 
something which is an opportunity to fix it, which just has to 
do with the way an agency or anybody reacts to a situation, to 
some kind of notice that there is a problem. If you move with 
some kind of reasonable speed to address the issue, you can 
preempt things from going to the next stage.
    The way this seemed to work is you missed the initial 
response opportunity, then you got into the stage where the 
lawyers' advice maybe became an influence over the Agency's 
action, and then, of course, the last stage is always hearings 
in front of Congress, which you could have preempted if you had 
done the first response properly.
    I am still, like I think everybody on the committee, trying 
to get my head around how little testing has been done relative 
to the complaints and the information that seemed to come 
forward. I know you have probably been asked this question 
about a dozen times and answered it, but if you could just do 
it for me: why did the Agency not conduct more testing in 
response to the complaints that were coming forward?
    Mr. Paulison. First of all, we do have a time line of 
everything we have done from the first time we recognized we 
had an issue with one trailer, which was in March 2006, and 
what we have done almost every month since then trying to find 
out how big the program is and what we are doing, so I can give 
this to you also.
    We did test trailers. We tested what we thought was the 
right thing to do, considering we had a very, very small amount 
of complaints. That was taking trailers that were brand new 
that had been locked up in the sun, testing for formaldehyde--
and yes, they did have formaldehyde--and what happens when you 
aired them out, as we were advised to do by the formaldehyde 
and disease control experts. Did it reduce the formaldehyde 
down to a lower level, and the answer was yes, it did.
    That was very quickly. We sent out a notice on----
    Mr. Sarbanes. Let me jump in and ask this question.
    Mr. Paulison. We sent out notices to all the residents 
that, very quickly, it was in July, which is just a few months 
after we had the first test. We sent a notice to every resident 
in those travel trailers that there was potential formaldehyde, 
and here is how you mitigate it. At that time, we thought that 
was all we needed to do to resolve this issue.
    You know, now we are going to go back and do some very 
significant testing. Sierra Club did some basic testing. We are 
going to expand that far beyond what they did. The doctor that 
spoke here earlier, those symptoms he was seeing, we have had 
CDC talk to him to get information from him. We are taking all 
this information to make some good, solid decisions.
    Mr. Sarbanes. The science that we got earlier on the 
earlier panel suggested that the point at which you can smell 
the formaldehyde represents a level of elevation well beyond 
what is acceptable, with the statements being that there is 
going to be a whole set of exposures below that level where you 
can actually smell it that are also harmful. So would you agree 
that the fact that you had what you are referring to as a 
relatively small number of complaints isn't necessarily 
relevant to how significant the problem could be? Would you 
agree with that?
    Mr. Paulison. What I said in my testimony was that, 
regardless of whether we had two complaints or two hundred 
complaints, which is what we have right now--200 out of 
120,000--it doesn't matter. We are going to move on with some 
very significant testing. So just because we had a few doesn't 
mean we are not going to--at that time we didn't think we had a 
big problem. We really didn't. We thought the off-gassing, 
ventilating--that was the advice that we were getting at the 
time.
    Again, I know you weren't here earlier, but in hindsight 
could we have made different decisions with what we know now? 
Yes, the answer is of course yes. But at the time we thought we 
were making the right decisions that protected the residents 
and didn't cause an upheaval and upsetting people's lives again 
by trying to move them somewhere else. And I don't know where 
we would have moved them to begin with.
    Mr. Sarbanes. What was the administrative decision not to 
test? I understand we talked about sort of the influence of the 
lawyers on decisions not to test, but who decided early on that 
testing was not needed?
    Mr. Paulison. We are not experts in formaldehyde. I mean, 
this is something brand new for us. We thought that by off-
gassing, by the advice we were getting to ventilate the travel 
trailers, and what we saw with the new travel trailers, that 
was a good decision and that would take care of the 
formaldehyde problem. In fact, after that the complaints did 
drop off a little bit. However, recognizing that is not going 
to work in the middle of July and summer in the Gulf Coast, 
that we have to do something different, and we are not going to 
be able to reduce those levels of formaldehyde, if it is even 
formaldehyde that is causing the problem. We are just assuming 
that it is.
    I have asked CDC to test for airborne bacteria. I have 
asked them to test for mold. I have asked them to test for 
mildew, along with the formaldehyde, to find out exactly what 
is causing the respiratory problems. Is it the trailer? Is it a 
certain manufacturer? Is it a certain style? Is it a certain 
part? You know, we don't have those answers yet, but I can have 
those in very short time, and that is what we are going to do 
to get some good, solid answers for these people living in 
these things.
    Mr. Sarbanes. Mr. Chairman, I yield back. I guess all the 
answers that we are going to get are answers that the Agency 
could have gotten earlier using just a minimum amount of 
diligence in my view. Thank you.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    Mr. Jindal.
    Mr. Jindal. Thank you, Mr. Chairman.
    I thank the chief. I have several points I want to share, 
Chief. If we do another round of questions I will give you time 
to expound on some of these things, but I have several things I 
want to share.
    I hope my colleagues understand why, for some of us in the 
Gulf Coast, for some in Louisiana, it is sometimes scary to 
hear somebody say they are from FEMA and here to help. I don't 
say that as a personal attack. I want to share with you my 
frustration.
    You know, we started off. You talk about addressing these 
three cases. I am glad Mr. Stewart actually communicated with 
me he has pictures of the trailer that was brought. You have 
the testimony of the 15. He has actually got pictures to share. 
I want you to know those weren't isolated cases. My office took 
phone calls from constituents I described in the last round of 
testimony where they couldn't get help. They were told they 
needed medical documentation. They were told the medical 
symptoms weren't true. They were actually told by FEMA 
officials that this wasn't happening, what they knew was 
happening to them and to their families.
    I won't repeat some of the heart-breaking cases. I will 
mention one. We had a constituent who literally only had one 
lung, decided it was safer to move back into a moldy residence 
than to stay in a FEMA-provided trailer, wasn't offered an 
alternative, because of the formaldehyde.
    I do want to make five other points.
    CBS News actually did a report that they found an internal 
document where FEMA was warning their inspectors about the 
potential cancer risk by being exposed to fumes, to 
formaldehyde fumes. These are for the inspectors. What about 
the people that have to live there day in, day out? What about 
the people whose kids have to sleep in those trailers?
    The third thing I want to share our frustration with is 
back in August 2006 FEMA indicated that they were going to do 
some testing. They were going to partner with EPA and the CDC. 
They told the committee this. But we find in the e-mails and 
documents that were given to this committee in July, in this 
month, that the actual testing didn't happen until after the 
lawsuits were filed. It just appears from the e-mails that it 
was more of a concern with the publicity with the lawsuits, 
rather than the health and the well-being of the people being 
housed in those trailers.
    The fourth thing I want to share with you in terms of 
frustration, you know, we heard in the previous panel and you 
have said it, it is obviously better to get people out of 
trailers into permanent housing. That would be, obviously, the 
best solution.
    Louisiana applied for alternative housing pilot program 
project. This Congress gave $400 million in June 2006 for the 
so-called Katrina cottages. In December 2006 the Department 
announced the grant recipients in Louisiana and Mississippi. 
You approved the Mississippi funding in April. As of July, 200 
days since you selected the awards, you still haven't approved 
funding for Louisiana's permanent housing project. So I agree 
with you, permanent housing is certainly preferable. Here is 
something that can be done right away to at least begin helping 
hundreds of families.
    My fifth point is that--and this has been mentioned by the 
chairman and others--when you look at the testing, a contractor 
working with the CDC said that the way the test protocols used 
by FEMA to test these trailers, doing them after they were 
completely ventilated, really appeared to be skewed to yield 
atypical results. I am glad to hear that you are now open to 
doing the testing of the trailers in the way they are actually 
used. I wish that had happened months ago. But we have heard 
that the testing actually appeared to have been designed to 
allow the best test results to be achieved.
    That really brings me to my last point, because I do not 
want to just show my frustration but I also want to point where 
do we go from here, and there are three things certainly I 
would like the Agency to do. Certainly I am glad to hear that 
you are committed to doing more systematic testing to determine 
how large of a problem is this, how many people are potentially 
impacted.
    Second, I would hope that for anybody at risk, anybody 
living in one of these trailers that continues to have some 
risk to their health, an alternative housing arrangement would 
be arranged, whether it is permanent housing, whether, as you 
mentioned, apartments, whether it is a more suitable trailer.
    Third, the people that have been exposed, I hope they will 
be provided with the appropriate medical monitoring and medical 
services. We are talking about a carcinogen. In addition to the 
cases that have been mentioned, with the chairman's permission 
I want to submit for the record some news reports. In Baton 
Rouge there was a case of a woman who has died from cancer. 
They haven't determined conclusively that it was due to the 
formaldehyde, but she had actually sued. She had started a 
lawsuit thinking she had been exposed to formaldehyde. She has 
now died from cancer.
    With the chairman's permission, I would like to submit 
those news reports for the record.
    Chairman Waxman. Without objection, we will receive them 
for the record.
    [The prepared statement of Hon. Bobby Jindal follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jindal. And I do suspect my time is running out, but I 
hope you understand the level of our frustration. You may have 
heard me say in the earlier panel that it is almost like there 
were three disasters. There was the storm, there was the 
failure of the levees, and now there has been the Government 
incompetence.
    Again, my point is not to yell at you, but my point is to 
say we have to fix this, not only for Mr. Stewart and the other 
two witnesses, but for all those families. Let's give them 
better housing. Let's give them the health care they need to 
make sure we don't have anybody else suffering unnecessarily 
from asthma, from cancer, from respiratory illnesses. Let's at 
least make sure, going forward, that we are not subjecting 
these people to these fumes after they have already been 
through so much.
    Mr. Paulison. Congressman, thank you. I appreciate your 
comments. I meant what I said earlier. I appreciate your 
leadership down there, and I do want to work with your office. 
If you are getting complaints that FEMA is not providing that 
customer service that I want down there, I would surely 
appreciate your sharing those with me personally so I can deal. 
These three I am going to deal with. It sounds to me like, 
according to what you are saying, there may be others, and I 
want to get on top of those and deal with them.
    Chairman Waxman. The gentleman's time has expired.
    The Chair recognizes himself for a second round.
    Mr. Paulison, I am pleased you want to respond when you get 
a complaint from a Congressman. I am pleased you want to 
respond to the witnesses today who came before the Congress. 
But I think you have to respond to the American people why we 
are in the situation we are in. For those who are listening to 
this hearing or watching it, they think Government bureaucracy 
can't do anything right.
    I come from Los Angeles, and FEMA acted so well, so 
professionally when we had our earthquake. FEMA became a 
laughing-stock when your predecessor, Michael Brown, was the 
head of it and Katrina hit, because there was no competence in 
dealing with that terrible tragedy. But you are now the head of 
FEMA. You were confirmed by the Senate in April 2006. The 
problems with these FEMA trailers occurred around March 2006, 
when we first started hearing about it. So this is all on your 
watch.
    On May 16, 2007, CBS aired an interview in which you stated 
you did not know that FEMA trailers were causing occupants to 
get sick. We have a clip. I want to run that clip for you of 
this interview.
    [Video shown.]
    Chairman Waxman. Mr. Paulison, we have reviewed nearly 
5,000 pages of FEMA documents, and they are full of alarms 
about the level of formaldehyde in these FEMA trailers, and the 
staff, your staff, said there was an immediate need to take 
action. There was an independent testing done by the Sierra 
Club, and they found over 80 percent of the trailers had 
dangerous levels of formaldehyde. That was a year ago.
    It is hard for me to believe that you could not know as of 
May this year that there were no serious problems or that there 
were serious problems for families living in these trailers. It 
appears to me that FEMA deliberately did not want to know.
    Mr. Paulison. No, sir----
    Chairman Waxman. Am I wrong?
    Mr. Paulison. That is not accurate at all, sir. First of 
all, the reporter ambushed me coming out of one of these 
hearings, and what he was talking about was the pediatrician 
that spoke here earlier and the children that he was seeing 
with more respiratory illnesses. Even with our doctors talking 
to him directly, what he told our doctors from Homeland 
Security, that if it was formaldehyde or was it bacteria in the 
air or was it mold or mildew, he was just seeing more 
respiratory problems. That is the answer I gave to the 
reporter. I don't know what is causing it. I am not a medical 
doctor. That is what I was trying to get across.
    Chairman Waxman. OK. Well, I just think that the public was 
appalled by the incompetence of FEMA after Hurricane Katrina, 
but when I look at your record regarding formaldehyde in FEMA 
trailers I see the same indifference, lack of concern, and 
incompetence.
    I want to raise another issue with you. We have another 
clip. This was on May 15, 2007. You testified before the 
Committee on Homeland Security. Could we run that clip?
    [Video shown.]
    Chairman Waxman. Well, your statement was not based on an 
ambush. You were testifying, and your testimony was you weren't 
sure that formaldehyde does present a health hazard, and you 
turned to EPA and others. And, according to the documents, EPA 
told FEMA ``the levels we find after testing may well be more 
than 100 times higher than the health base level.''
    You didn't do the testing, but after EPA told your staff 
that testing under real-world conditions would expose problems 
you changed the protocol. FEMA decided to test with the windows 
open, fans running, under unrealistic conditions. I can't 
understand why you changed the testing protocol about what was 
really happening to people. Can you give us an explanation of 
that?
    Mr. Paulison. That test was done to see if we could reduce 
the level of formaldehyde in the trailers by opening them up 
and ventilating them out. It went along with the original test 
where we tested new trailers closed up in the sun. Yes, they 
had a lot of formaldehyde. Could we do another test with the 
advice we were given to ventilate the trailers and open them up 
and let them air out and off-gas the formaldehyde. That, sir, 
was not a test to say yes, we don't have formaldehyde. We knew 
we had formaldehyde. They said could we do that, and based on 
that test we advised the residents, we sent notices out to all 
of the residents to air their trailers out if they are 
sensitive to formaldehyde, if it is causing a problem, open the 
windows, air it out, and off-gas that formaldehyde out of the 
trailer.
    Again, Congressman, I do appreciate this hearing. It is the 
right thing to do. I think we ought to come up with some good 
answers at the end of the day. We made the best decisions we 
could at the time. In retrospect? There is no question in 
retrospect we could have done things differently had we had the 
information we have now.
    Chairman Waxman. Well, I guess I am questioning whether you 
did make the best decisions with the----
    Mr. Paulison. I understand that.
    Chairman Waxman [continuing]. With the information you had, 
because it seems to me you had red flags all over the place. 
But, despite that, on May 17, 2006, the FEMA national spokesman 
made the following statement: ``FEMA and industry experts have 
evaluated the small number of cases where odors of formaldehyde 
have been reported, and we are confident that there is no 
ongoing risk.'' Why was FEMA confident that there was no risk? 
How could FEMA make a statement like that in May 2006 when you 
were hearing all these reports about people getting sick?
    Mr. Paulison. Again, I don't know when this statement was 
made as far as----
    Chairman Waxman. It was made in May 2006.
    Mr. Paulison. Again, I don't know what the relationship to 
that statement was, and I suspect it might have been made to 
the fact that we felt--again, I am surmising now--we might have 
felt that by ventilating the trailers and off-gassing the 
formaldehyde that there was no risk to the trailers. I don't 
want to second guess what somebody was saying or why they said 
it.
    Chairman Waxman. Well, that somebody worked for you.
    Mr. Paulison. Yes, sir, I understand.
    Chairman Waxman. And spoke on behalf of your Agency.
    Mr. Paulison. I understand.
    Chairman Waxman. Where does the responsibility for running 
your agency stop?
    Mr. Paulison. It stops with me, sir.
    Chairman Waxman. OK.
    I want to recognize any other Members who want a second 
round of questions.
    Ms. Norton.
    Ms. Norton. Mr. Paulison, I have two questions I really 
must get in. One really goes to the good faith of the Agency, 
even after your testimony today.
    I want to ask you to look at this exhibit. We have an 
exhibit from August, 2006, with a pamphlet on page 377 and 378 
which was distributed to occupants of these trailers. We have 
combed this exhibit, exhibit U. We cannot find a telephone 
number for people to call.
    Then there is another exhibit that the committee obtained, 
exhibit T. This is e-mail from two FEMA employees, and this is 
the quotation going to the good faith of what you have said 
here today, sir. I think you need to indicate how this 
happened. This is a question, a good faith question from an 
employee. ``I don't see a number on it. Are you all going to 
put your numbers on it? We here in MS--'' I guess that is 
Mississippi--``would put our call number on it. Or is the 
intent not to?''
    In response another FEMA employee says this in return. 
``Hi, Sid. We are trying to not generate a lot of calls, just 
get the facts out.''
    You must explain, Mr. Paulison. I understand in earlier 
questions you talked about how people should be in touch with 
the companies. This is a FEMA document. How could you possibly 
have put out a document on trailers and apparently deliberately 
not give a contact number?
    Mr. Paulison. Because the contact that they were supposed 
to make is with their maintenance group, and that number is 
posted inside the trailer.
    Ms. Norton. But why did not the document say----
    Mr. Paulison. They should have. But the----
    Ms. Norton. So there was no number of any kind on the 
document, just the fact that you may be in danger.
    Mr. Paulison. The residents are told. They are given clear 
instructions for documentation if there is any problem with 
the--we have 27 different maintenance units across the Gulf 
Coast. If there is any problems with that trailer, that is what 
they are supposed to call.
    By printing the program office number on there, it would 
just confuse things. We couldn't do different documents for 
every----
    Ms. Norton. You know what? You know what? Your employees 
didn't think so. They thought they should be a point of contact 
for you. You essentially were off-loading, out-sourcing the 
rest of the deal. Look, you got problems, it is between you and 
the contractor. But where did you get the trailer from? You got 
it from FEMA, and FEMA off-loads responsibility altogether. 
They could have gotten a thousand different responses from 
trailer companies.
    The notion that you would out-source that responsibility 
after you, yourself, were responsible for getting the trailer 
for the resident creates a question of your good faith, 
particularly given what these employees were told.
    So I have to ask you, is there going to be a telephone 
number in FEMA that people can call with respect to problems 
with the trailers?
    Mr. Paulison. The best place for them to deal with anything 
wrong with their trailer, including formaldehyde, is the 
maintenance contractors assigned to that particular service 
park. They are trained and know what the answers are.
    Ms. Norton. You hear it now, Mr. Chairman. The trailer 
comes from FEMA. The trailer comes directly from FEMA, not from 
the contractor, not from the dealer.
    Mr. Paulison. But they are the ones who we hired to take 
care of the maintenance of that trailer.
    Ms. Norton. And so you are going to leave it to people of 
every level, every educational level, no background in 
trailers, to negotiate their way out of the problem? Who is 
going to pay for it? Who is going to pay for it, Mr. Paulison? 
Who is in charge of paying for it if there is a problem with 
formaldehyde or anything else in the trailer?
    Mr. Paulison. We are.
    Ms. Norton. I think that is the answer to the question, Mr. 
Paulison. If, in fact, you are the vendor, you have to pay for 
it. You cannot tell me that the tenant has to therefore 
negotiate the deal with the trailer company.
    Mr. Paulison. There is no negotiation. That is the opening, 
the portal into the maintenance for the trailer.
    Ms. Norton. Mr. Paulison, I have to ask you, are you 
willing now to give a FEMA number for people to call?
    Mr. Paulison. That is our FEMA number. If we start 
confusing the residents with different numbers----
    Ms. Norton. Are you willing to give a FEMA number if a 
resident in a trailer has a problem with the trailer that 
resident got from you? Yes or no? Are you willing to do that, 
sir?
    Mr. Paulison. We have a number. We put it inside the 
trailer for them to have right there at their hands. I don't 
know what else to tell you.
    Ms. Norton. You are not willing to give a FEMA number?
    Mr. Paulison. They have a FEMA----
    Ms. Norton. If the tenant has a----
    Mr. Paulison. That is a FEMA number. That is who they go to 
for----
    Ms. Norton. Are you telling me that this is not still the 
case that he said we don't want to give the number out? Now you 
do give a FEMA number out? What is that number, please?
    Mr. Paulison. That number is different for every park, 
because we have 27 different maintenance----
    Ms. Norton. Is there a FEMA? Mr. Paulison, why can't I get 
an answer. Is there a FEMA number?
    Mr. Paulison. There is a FEMA number. That is the number 
that FEMA uses for the occupants' access the maintenance for 
that trailer.
    Ms. Norton. You are telling me that your position still is 
that, although you contracted for the trailer, the FEMA number 
is the number of the trailer company, itself? Is that your 
answer?
    Mr. Paulison. No, it is not the trailer company. We hire--
--
    Ms. Norton. It is who?
    Mr. Paulison. We hire maintenance contractors to maintain 
those trailers. They make regular visits to the trailer parks 
to the trailers to----
    Ms. Norton. And the vendors deal directly with the----
    Mr. Paulison. If there is any problem with that trailer, 
they go to them. We pay those contractors. They are basically 
our employees. I mean, that is who we use. We train them. We 
give them instructions to----
    Ms. Norton. I am sorry that none of the people are here so 
we can find out if the system works.
    I understand you are going to have another hearing on ice. 
We have had a hearing on food where millions of dollars in food 
were wasted and other food had to be given away. Now, Mr. 
Chairman, just recently it was exposed to one of the members of 
our subcommittee who had a press conference on this yesterday 
because his area, Memphis, is where some of this ice was 
located, 22 locations where you stored ice. We are told, common 
knowledge, ice has a 1-year shelf life. Why did you not get rid 
of this ice within 1 year, Mr. Paulison?
    Mr. Paulison. The ice that we had has been tested----
    Ms. Norton. It is $12.5 million in storage costs to the 
United States.
    Mr. Paulison. The ice is a commodity that has an expiration 
date. We kept it as long as we could, and we made the decision 
to get rid of it, and the only way to get rid of it is to let 
it melt.
    Ms. Norton. My question is, Katrina has been over for a 
long time. So has the following year when there might have been 
hurricanes. If you had gotten rid of the ice earlier, there 
would have been a mitigation cost to the taxpayer; is that not 
true?
    Mr. Paulison. If we had gotten rid of it earlier, but we 
still felt the ice had life expectancy. We kept it as long as 
we could, and then we made a decision to get rid of it. We are 
not going to store ice any more. We have made a decision now to 
use outside contractors. It is not a life-saving commodity. We 
don't need it today. You can wait until tomorrow to get it. 
Food and water is a lifesaving commodity. We will still store 
those things, but the ice we will not.
    Chairman Waxman. The gentlelady's time has expired.
    Mr. Sarbanes, do you wish a second round?
    Mr. Sarbanes. Real briefly, Mr. Chairman. I am not going to 
ask any more questions about why you did or didn't do the 
things you did or didn't do, because the answers are so 
implausible to me, but I think I have figured out maybe what 
was going on. The behavior of the Agency was irrational if the 
Agency was one that wanted to know what was going on. In other 
words, you can't square what you did with a desire to get to 
the bottom of the issue. It is irrational behavior. And human 
beings are fundamentally, when they have possession of all 
their faculties, human beings act in a rational way, so I am 
trying to figure out what would make the behavior rational.
    The only thing that makes the behavior of the Agency and 
its leadership rational would be if you didn't want to know and 
you didn't want to take responsibility. That would explain why 
you wouldn't do testing that was obviously called for. That 
would explain why, when you did do the testing, you would do it 
under these highly contrived conditions in order to try to get 
to a result that would be favorable. That would explain why, 
when you did the testing, you did it on trailers that were not 
occupied, because if you found a bad result you could then, in 
a very legalistic way, distinguish it from those who were 
occupying the trailers because you could say, well, the fact 
that these trailers that are unoccupied have dangerous levels 
doesn't mean that the trailers that are occupied have dangerous 
levels.
    So every step of the way it was calculated to not know or 
not take responsibility. I have reached that conclusion because 
you strike me as a rational person, and the only way to explain 
your behavior in a rational way is to conclude that you didn't 
want to know and you didn't want to take responsibility.
    No further question.
    Chairman Waxman. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Just a few final questions, if I am one of the last people 
to ask. I want to make sure this problem doesn't spread. I 
mean, you certainly hear the combination of frustration, 
exasperation, and disbelief from members of this panel, but I 
want to talk about where these trailers are moving from here.
    I understand that a lot of these trailers, as people no 
longer need them in the Gulf region, are moving to other 
places. I want to ask the simple question what procedures you 
are putting in place to make sure that none of the trailers 
that have any formaldehyde contamination or have any reasonable 
belief of formaldehyde contamination are reaching other parts 
of this country and other buyers who are looking for those 
trailers.
    Mr. Paulison. We are selling the trailers. We are excessing 
through GSA. Based on what we know now, what we are going to 
have to do is make sure those buyers understand that these are 
meant for camping, not for long-term living; that they do have 
formaldehyde in them, and here is assistance for that. So we 
are going to have to do that with every trailer we sell as we 
get rid of them. Other than that, we will just take them and 
crush them and put them in a dumpster somewhere, and I don't 
think that is fiscally responsible, considering that every 
travel trailer is built basically the same. People either buy 
them from a travel agency or buy them used from us. In fact, 
the used ones would have less formaldehyde than a brand new 
one.
    So we do excess them through GSA to get rid of them. We 
have had, I think, over 20,000 people who have those travel 
trailers now want to keep them once they have moved out of 
them. I don't know what we are going to do with that yet, but 
they have sent us notification. They have asked for those, but 
they want to keep them for camping trailers, not to live in, 
obviously.
    Mr. Murphy. And I don't know what the answer to this is. I 
don't know when you cut your losses here. I understand the need 
to always be mindful of fiscal responsibility, but to the 
extent there is any level of formaldehyde that even in the 
short term or the long term, because this is probably not going 
to be the last owner of the trailers, they are going to be 
transferred again and again and again, and to somehow rely on 
the fact that information is going to be disclosed as they get 
transferred seems like a pretty dangerous policy when we have 
our hands on them right now.
    I mean, just as a for instance, Mr. Paulison, this 
committee I know contacted the Texas Parks and Wildlife 
Department where some of these trailers are transferred to. 
They tested them once they got them and found levels of 
formaldehyde above the 0.1 parts per million. So we already 
know people have them that have tested them, themselves, and 
found levels that they consider to be excessively high.
    I would just ask you to really reconsider that point as to 
whether disclosure is going to be the best policy going 
forward. We may have to cut our losses here on trailers that 
have been contaminated and known to have harmed people already.
    Mr. Paulison. Again, as we learn more and more about these 
things, that is definitely a public policy discussion we have 
to have with what we are going to do with them. I think your 
comments are right on target.
    Chairman Waxman. Thank you very much, Mr. Murphy.
    Mr. Paulison, as I said to you before we even started this 
hearing, our job is to find out what happened and make sure it 
doesn't happen again. We are trying to be constructive, but I 
think we all have to be responsible. Our job is to do 
responsible oversight, and I hope you will look to see whether 
your Agency has handled all of this in a responsible manner.
    Thank you very much for being here.
    Mr. Paulison. Thank you, sir. Again, I meant what I said 
earlier. I appreciate what you do in the hearing. I think a lot 
of good things are going to come out of it at the end of the 
day.
    Chairman Waxman. Thank you. That concludes our business at 
this hearing. We stand adjourned.
    [Whereupon, at 2:10 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
